<html>
<title> - EMPOWERING LOCAL LAW ENFORCEMENT TO COMBAT ILLEGAL IMMIGRATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     EMPOWERING LOCAL LAW ENFORCEMENT TO COMBAT ILLEGAL IMMIGRATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 25, 2006

                               __________

                           Serial No. 109-243

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-029                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                       Dennis Kilcoynce, Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 25, 2006..................................     1
Statement of:
    Cloninger, Alan, sheriff, Gaston County......................    40
    Lands, Michael, District Attorney, Gaston County.............    43
    Moose, Emily, mother of Scott Gardner........................    55
    Pendergraph, Jim, sheriff, Mecklenburg County................    48
    Smith, Kenneth A., Special Agent, ICE........................    15
Letters, statements, etc., submitted for the record by:
    Cloninger, Alan, sheriff, Gaston County, prepared statement 
      of.........................................................    42
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina, prepared statement of.............    82
    Lands, Michael, District Attorney, Gaston County, prepared 
      statement of...............................................    45
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........    10
    Moose, Emily, mother of Scott Gardner, prepared statement of.    58
    Pendergraph, Jim, sheriff, Mecklenburg County, prepared 
      statement of...............................................    51
    Smith, Kenneth A., Special Agent, ICE, prepared statement of.    18
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5


     EMPOWERING LOCAL LAW ENFORCEMENT TO COMBAT ILLEGAL IMMIGRATION

                              ----------                              


                        FRIDAY, AUGUST 25, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Gastonia, NC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., at 
Congresswoman Myrick's District Office, Gastonia, NC, Mark E. 
Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder, Myrick, Foxx and McHenry.
    Staff present: Dennis Kilcoyne, counsel; Scott Springer, 
congressional fellow; and Kimberly Craswell, clerk.
    Mr. Souder. The subcommittee will come to order. Good 
morning and thank you all for coming. This is the third hearing 
our subcommittee has held this year on the subject of illegal 
immigration. The first was in Winston-Salem in April on illegal 
immigrant gangs, and the second was just last month in 
Washington, DC, on the proposed expansion of the Southwest 
border fence. I'd like to thank my fellow member and good 
friend, Sue Myrick, classmate, who was--has invited us here to 
her district. I hope that the information we gather at this 
hearing will help us achieve the goals of securing our border 
and enhancing Federal partnership with State and local 
officials in combating illegal immigration. I should also point 
out that this subcommittee did a major border report three or 4 
years ago before the creation of the Homeland Security 
Committee that was the foundation of the border committee, that 
2-year cycle we did somewhere in the vicinity of 10 to 12 
hearings on both the Southwest border and on the Northern 
border in Canada so--and we have oversight over the Justice 
Department, which is why we work on illegal immigration. This 
is just the third hearing in the cycle of the last 6 months.
    Since 2001, the illegal immigrant population in this 
country has been swelling by nearly 1 million annually. After 
crossing the border, most illegal immigrants undoubtedly would 
prefer to quietly find work and earn money rather than 
participate in any activity that might draw the attention of 
law enforcement. However, some of them feel no such restraint, 
as many Federal, State and local police agencies will attest. 
As the illegal immigrant population swells, so too does the 
population of criminals among them.
    To cope with this growing problem, drastic improvements in 
border security and internal enforcement of immigration laws 
are needed. Today's hearing will focus on what Federal law 
enforcement agencies can do and are doing to partner with State 
and local officials in enforcing immigration laws.
    The main Federal agency tasked with internal enforcement of 
immigration laws is Immigration and Customs Enforcement, or 
ICE, which is part of the Department of Homeland Security. The 
most recent estimate for our illegal immigrant population from 
January 2005 is 10.5 million. Undoubtedly, then, it must be at 
11 million by now, and over 300,000 of these are in North 
Carolina. For this, ICE has approximately 3,500 agents. It is 
unable to adequately pursue all leads on immigration 
violations, even ones that involve serious criminal violations. 
As long as these violations can only be pursued spottily there 
is little hope of building a genuine climate of deterrence of 
those inclined to violate immigration laws. Even deportation of 
criminal aliens released from prison cannot always be done, due 
to the lack of resources and coordination, not to mention that 
they come right back across.
    One solution to these dilemmas has been growing since it 
was first tried in 2002. This is known as the 287(g) cross- 
designation training program. By the authority of Section 
287(g) of the Immigration and Nationality Act, the Department 
of Homeland Security can enter into assistance agreements with 
State and local agencies. The agreements are spelled out in a 
Memorandum of Understanding, MOU, in which the scope, intent, 
responsibilities and procedures of the program are covered. 
These agreements allow State and local officials much-needed 
flexibility to shape and guide the program. ICE personnel then 
train the State and locals in a 5-week program--currently 
costing roughly $520 per officer trained--focusing on 
immigration law, civil rights, intercultural relations and 
issues and illegalities surrounding racial profiling. Once the 
training is completed and examinations are passed, the officers 
receive official ICE certification and authority to enforce 
certain immigration laws. Thereafter, ICE continues to provide 
supervision and support so that officers might respond 
appropriately when a suspect is found to be an illegal alien. 
Though this opportunity has existed in law since 1996, no State 
or locality took advantage of it until the Florida Department 
of Law Enforcement did so in 2002.
    In practical terms, 287(g) training and certification gives 
local law enforcement a vital tool in combating a criminal 
class that grows with the illegal immigrant population. Many 
criminal illegal aliens who, given circumstances, might 
otherwise have to be released can be held and processed for 
deportation or Federal prosecutions. State and local officers 
can interview suspects and prison inmates to determine if 
immigration laws have been violated, process and fingerprint 
them for such violations, prepare documents for deportation and 
refer criminal aliens to ICE for potential Federal prosecution.
    A recent case in California demonstrates the urgent need 
for expanded 287(g) training. On July 15, a notorious gang 
member in Los Angeles, one Mauricio Alejandro Jimenez, shot and 
killed a pair of 1 and 3-year-old brothers. Area law 
enforcement was well acquainted with him, having arrested him 
seven times for various gun and gang crimes.
    He had recently been deported after serving a year in 
prison, but had immediately re-entered the country and returned 
to haunt his old neighborhood. Had local authorities been 
trained under 287(g) and received authority to enforce 
immigration laws, they would have been able to immediately 
arrest and process him without having to wait for any Federal 
assistance or for him to commit further crimes under State law.
    Many such criminals like Jimenez are able to thrive in 
their communities because of the reluctance of their victims to 
cooperate with police. Otherwise law-abiding illegal immigrants 
are fearful that any contact with authorities could result in 
deportation. But once officers, deputies and detectives obtain 
immigration-law authority, they can arrest gang members like 
Jimenez and remove them from the neighborhoods without the 
delays caused by having to painstakingly build trusting 
relationships with suspicious immigrants.
    It is the constitutional responsibility of the Federal 
Government to protect the borders and regulate immigration. 
Given the scope of the problem of illegal immigration, the 
Federal Government should move quickly to provide 287(g) 
training and authority to the growing number of State and local 
jurisdictions that are requesting it. This hearing will explore 
the North Carolina experience with 287(g) and seek answers to 
the strengths and weaknesses of the program.
    For the first panel, we are joined by Mr. Kenneth A. Smith, 
Special Agent of Immigration and Customs Enforcement's Atlanta 
office.
    On our second panel, we are joined by Gaston County Sheriff 
Alan Cloninger, District Attorney Michael Lands of Judicial 
District 27A, Mecklenburg County Sheriff Jim Pendergraph and 
Ms. Emily Moose, who has a painful personal story about what 
happens when government fails to properly enforce its 
immigration laws.
    Now I have a couple of additional points I want to make. 
There has apparently been some misunderstanding on a few points 
that we've attempted to clarify. This is a congressional 
oversight hearing; it is not a town hall meeting. We have 
brought two panels of witnesses here to answer questions and 
give us information that we as Members of Congress need to see 
that this program is being utilized as it should be and to be 
better informed is the purpose of our subcommittee under the 
Constitution and the laws of the United States. I thank all the 
audience members who have come here to observe us as we carry 
out our constitutional duties and we ask you all to help us by 
refraining from any interruptions about the rule of law and we 
need to follow the law. We allow people to observe because we 
represent you in Congress and people are allowed to watch our 
congressional hearings in Washington as they are in the field. 
It's good for us to get into the field where we can, one, not 
have bells go off and being--running around and actually focus 
our attention rather than, how do I say it, before ADD when we 
got elected to Congress and ADD shortly thereafter because of 
all the things that come at us.
    Let me briefly explain for those who are not familiar with 
our committee. Congress is set up such that we have authorized 
committees. The best--a simple example would be education where 
we set out the No Child Left Behind.
    Then we have an appropriations committee that would fund 
those decisions that are guidelines by the Education Committee. 
Then we have oversight committees to see that the executive 
branch is implementing the intent of what was authorized and 
funded and that also to see whether there need to be changes in 
those laws. This is part of a--an oversight committee. The 
oversight committees in Congress were created almost 
immediately even before the authorized committee because even 
back in George Washington's day Congress immediately became 
concerned whether the executive branch was implementing the 
programs that they did. So this committee is actually one of 
the oldest in Congress. Then we have--My subcommittee that I 
chair has oversight over all criminal issues. Drug policy in 
particular is where our primary focus is in Congress because we 
do the authorizing and the oversight on the drug czar's office 
and on narcotics. So about half of our hearings deal with 
narcotics. It's taken us into border issues and immigration 
issues.
    The full committee, and you'll see today and I'll explain, 
we--we swear our witnesses in; that probably it used to be we 
were best known for doing many investigations on the previous 
Presidential administration under President Clinton but lately 
it's--I don't want to talk about the past, and Mark McGwire and 
Rafael Palmeiro who pointed his finger at both Patrick and I 
and said that--Patrick is vice chairman of our subcommittee, 
Congressman McHenry, and he said: I never used these steroids. 
And it was pretty amazing. Anyway, that's the genesis of our 
committee and what our subcommittee does and it's great to be 
here again in North Carolina and now we yield to the vice 
chairman of the subcommittee Congressman McHenry.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.001
    
    [GRAPHIC] [TIFF OMITTED] T6029.002
    
    [GRAPHIC] [TIFF OMITTED] T6029.003
    
    Mr. McHenry. Thank you, Chairman Souder. Thank you for 
coming to Western North Carolina once again. Thank you for 
coming back and I'm very grateful that you chose my native 
Gaston County to have this important hearing and I want to 
thank my colleague Sue Myrick for opening her wonderful office 
and hosting us here today. This is quite an important event for 
us to discuss the impact on illegal immigration; that impact 
that it has on local law enforcement. This is the discussion 
today. We're not going to go outside of that purview that we 
have here on this committee. As Vice Chair of the committee as 
Chairman Souder said we have oversight over criminal justice 
programs in the executive branch. We also have enormous 
oversight over drug policy; anti-drug policy, and that's where 
we have been very involved when Chairman Souder brought the 
committee down a few months ago to the northern part of my 
district to discuss how to curb meth abuse.
    But today we have an important hearing, Mr. Chairman, about 
illegal immigration and the impact it has on our communities 
and local law enforcement. With an estimated 11 to 12 million 
of illegal immigrants in the country a number of congressional 
field hearings are being held at this August work period when 
Members of Congress are back in their districts for a full 
month in order to get a better understanding of the challenges 
facing our Nation as a result of this illegal flow of coming--
of folks coming across our border. It's often said that America 
is a Nation of immigrants. While that is true I also believe 
that America is a Nation of laws and without the respect for 
law we cannot have a foundation for society. And what we are 
seeing with illegal immigration is a disrespect and a disregard 
for our laws that we have in place. And in--while North 
Carolina is not a border State it's greatly impacted on many 
fronts by those who choose to ignore our laws and enter this 
country illegally.
    According to a March 2006 projection report by the 
Federation of American Immigration Reform, FAIR, there are an 
estimated 450,000 illegal immigrants in North Carolina. This 
increase in population makes the State one of the top five 
highest percentage of illegals. We have one of the top five 
illegals--illegal populations in the Nation. Now while we're 
not a border State we are being affected as if we were a border 
State and it's important now more than ever that we empower 
local law enforcement to deal with the rising tide of illegal 
immigration. This is a multi-tiered front that we have to face 
and while we need to certainly secure our border the discussion 
here today is how do we get the tools in place for local law 
enforcement to deal with this illegal population.
    There has also been a growing interest in the 287(g) 
program which allows local law enforcement to assist Federal 
agents in performing immigration law enforcement functions. As 
the illegal population in the States grow we have witnessed a 
surge in crimes linked to illegal immigration over the past few 
years ranging from drunk driving accidents involving illegals 
to increased drug trade and interstate smuggling. While all of 
these are very important things we have to have the tools in 
place to curb them and stop them. And there's been a noted 
increase in trafficking of a more potent form of 
methamphetamine called Ice which is primarily manufactured in 
Mexico before it's distributed throughout Western North 
Carolina and throughout the Southeast.
    I want to thank Sheriff Cloninger, my sheriff here in 
Gaston County. Thank you so much for agreeing to testify today 
and for your perspective. It's very important as someone--as 
you'll say in your testimony as someone who is going through 
the process of getting your deputies crossed over into the 
287(g) program. We also have Sheriff Pendergraph from 
Mecklenburg County and he's going to discuss the tools that 
they currently have in place with the 287(g) program and the 
results they've been able to get already in Mecklenburg County. 
Additionally, my district attorney as well, Mike Lands. Thank 
you for being here and I'm looking forward to your testimony 
because of your unique perspective dealing in the criminal 
justice system in the courthouse. Also ICE Agent Ken Smith. 
Thank you so much for agreeing to be here. And, finally, Ms. 
Moose, I'm very grateful for your willingness to tell your 
story and to share with the community the pain and the 
suffering you've gone through because of illegal immigration.
    While this is a larger national debate it's important that 
we not lose sight of the effect it has on local communities and 
local law enforcement and that's the discussion we have here 
today. And I want to thank Sue Myrick for her leadership in 
Congress dealing with this challenging issue; her innovative 
ideas to crack down on illegal immigrants that are committing 
heinous crimes here in this country. Your leadership has been 
noted in Washington, DC, and I certainly appreciate it as a 
colleague, neighbor and friend. And so with that, Mr. Chairman, 
thank you so much for agreeing to have this field hearing 
today. It's important that we get feedback from local folks and 
I appreciate you traveling down to our great State once again.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T6029.004

[GRAPHIC] [TIFF OMITTED] T6029.005

    Mr. Souder. Thank you. Before yielding to Congresswoman 
Myrick, it's been great to have both Congressman McHenry and 
Congresswoman Foxx on our subcommittee as Members of Congress 
and she'll be joining us hopefully soon is my understanding. 
But Congresswoman Myrick and I were elected the same year in 
1994. She's been a very passionate advocate for North Carolina. 
One way you can tell this, this is my third time at a hearing 
in the Charlotte area that in--early on in our term because I'm 
a senior member of the Education Committee we did an education 
event in Charlotte. We did a--I said the authority of our 
subcommittee is broad. We did a series of hearings on faith-
based and a few years ago we were in Charlotte looking at all 
the different faith-based programs and Charlotte is one of the 
centers in the country so we did a regional Southeastern U.S. 
area on faith-based in Charlotte. She's also been buttonholing 
people for many years before immigration--she was concerned 
about immigration laws before being concerned about immigration 
laws was cool, if that would be the correct country phrase, and 
very concerned about these issues and has been very passionate 
for multi- terms and it's great to be here today with both of 
my colleagues from North Carolina and now I'd like to yield to 
my distinguished friend and colleague Congresswoman Sue Myrick.
    Mrs. Myrick. Thank you, Mark. I appreciate it very much and 
we're grateful to you for being here and, Patrick, it's good to 
have a vice chairman of the committee from Gaston County. 
That's always very good. It gives us a little more clout up 
there as well. And I also want to thank all of you who took 
your time to come today. I know some of you took time off of 
work to be here because this is an important issue to you as 
well. This is not an issue that only affects the border States 
as we found out and the explosive growth that we've had in 
North Carolina with illegal immigration has really changed our 
State in the past decade and we're not, of course, the only one 
dealing with this new dynamic that's been presented. That's one 
reason we're finally able to get the attention of people in 
Congress to make something happen. It is a nationwide issue and 
it challenges the core beliefs of our country and has national 
security implications of grave importance.
    We're a Nation of immigrants as has already been said. Most 
of you probably know your ancestral heritage. We all came from 
someplace, our grandparents or great grandparents did, and we 
know that there are economic and societal benefits to legal 
immigration but we're also a Nation of laws and immigrants who 
enter our country illegally have undermined the fundamental 
tenet of our society, that's respect for our law. We in 
Congress are largely responsible for the illegal immigration 
crisis that we're now trying to fix because for years as was 
mentioned by the chairman efforts to protect our Southern 
border were hampered by the Federal Government turning a blind 
eye to the ever-growing problem and, consequently, you know the 
stats; eight to 13 to 20 million people today in the country, 
and that doesn't include the children of illegal immigrants who 
are born here who become citizens; granted automatic 
citizenship. It strains our schools and our social services and 
our law enforcement.
    State and local governments are bearing a great deal of the 
cost of this illegal immigration and they're fed up with the 
Federal Government, very frankly, not carrying out its 
responsibilities. I hear it every day from all of my 
constituents, I'm sure my colleagues do the same, that we 
aren't protecting our borders and enforcing our laws. And, you 
know, they have a right to be angry about the fact that we 
haven't done everything we should. Even more trouble- some to 
me is the very real possibility Islamic fundamentalists have 
slipped into our country to commit acts of terror and this is a 
very important part of this whole problem. What's going on in 
the Middle East today with Iran and the funding and the 
training and the supporting of terrorists and the hate for 
America that's being generated by the Islamic fascists is no 
secret. They've made it clear they want to kill us and the 
images on TV of Iranian troops who are marching, the young 
people in the stands saluting was an image of 1938 Germany all 
over again and we all vowed that wouldn't happen and so, you 
know, when it comes to the big picture of terrorism worldwide 
when are we going to wake up in America and political 
correctness stop.
    The Department of Homeland Security and Congress are 
currently working together in an effort to secure our borders 
and some progress is being made and, yes, the National Guard 
troops have helped but there is a great deal of work left to be 
done and I truly believe we can do this if we put the resources 
behind it that are needed and, unfortunately, interior States 
like North Carolina are still fighting an uphill battle to get 
the help that we need with illegal immigration. Immigration and 
Customs Enforcement, the agency charged with investigating, 
apprehending and deporting criminal illegal aliens, doesn't 
receive adequate resources to do their job. I mean, we've got 
phenomenal people here who are doing just unbelievable things 
with very limited resources in North Carolina. We're very 
blessed by good committed people who care but ICE is for the 
most part the only Federal agency--immigration agency working 
in the interior States and they face a monumental challenge in 
trying to enforce our laws.
    So the 287(g) program which you've already heard we're 
going to talk about today with our sheriffs does give local law 
enforcement agencies the opportunity to help with criminal 
illegal aliens and to begin the deportation practice. And 
that's what we're talking about, criminal illegal aliens. The 
mission of law enforcement naturally is to provide public 
safety and a lot of times their hands are tied when it comes to 
this so Mecklenburg County entering into this has been a great 
help and you'll hear about that. Illegal immigration can't be 
addressed simply by law enforcement alone and that's why I and 
several of my colleagues have been working very hard to get an 
immigration court here in North Carolina because right now as 
Patrick mentioned 450,000 at least illegals here. When they're 
arrested and they are told to show up for court in a hearing 
they have to go to Atlanta 4 to 8 hours away. Fat chance 
they're going to show up. I mean, we know that.
    They don't go. And that's been a really big problem. So 
there are a lot of States that are smaller than we are that 
have immigration courts and we feel that it's our turn now to 
get one. We're working on that and hopefully it won't be too 
long before that happens. Emily Moose is going to testify 
today. I've introduced legislation that became part of the bill 
we passed through the House that very simply says that if you 
are arrested for driving drunk and you are illegal you're 
automatically deported, and then that the local people have to 
report that into a data base federally so everybody will know. 
That is part of the bill. We hope it's going to stay a part 
of--we hope we're going to get Congress support and an 
immigration bill done through Congress very soon. If it doesn't 
we'll still push to get that as stand-alone legislation because 
it needs to be enacted.
    But I really appreciate again the chairman coming because 
this field hearing is important. It's important that they hear 
from people around the country who are actually doing the 
legwork and dealing with the problem and, you know, people in 
Washington and the agencies have different jobs but these guys 
are on the firing line every day and you'll hear some testimony 
today that's going to share--show a lot of insight into what 
the problems are they're dealing with and then hopefully this 
committee and Congress as a whole will be able to do what we 
need to do to help solve the problems that they're facing 
today. Again, Mr. Chairman, thank you for your consideration.
    Mr. Souder. As many of you may be aware for the last 3 
months we have been doing systematic multiple committees, 
immigration hearings. This will be the greatest collection of 
information and part of that group over a 3-month period 
totally embedded in the United States hopefully can lead to 
action. I needed to mention two other things that are very 
interesting at a personal level. One is I want to congratulate 
Congresswoman Myrick on this office. As a former mayor of 
Charlotte I know she shares a passion for historic 
rehabilitation like me. One of the things we're doing in this 
cycle in our committee as I said we have a broad jurisdiction. 
We've been doing a series of hearings on national parks and 
being able to preserve downtowns and old buildings like this is 
just really great. This is certainly the best district office 
I've been in.
    I've been in a few nice ones.
    Mr. McHenry. Actually, Chairman, I just turned around and 
saw the mayor of Gastonia and she nearly leapt out of her seat 
because she's been working for 6 years on an overnight success 
for Downtown Gastonia and she's getting there and certainly Sue 
Myrick's office here is a vital part of it.
    Mr. Souder. Charlie Rich years ago when he had the Behind 
Closed Doors hit, they said: What's it feel like to be an 
overnight success? He said: Overnight success? I sang in bars 
for 30 years to get to my overnight success, and that's the way 
it is. The other thing is I feel a little like coming home. I 
grew up in the retail furniture industry and spent spring and 
falls here before half of it went to China which is another 
comment but our furniture--we sold North Carolina furniture; I 
have in my house North Carolina furniture so I need to make 
that note.
    I have a couple of procedural things we need to do before 
we get started before we hear testimony to take care of these 
procedural matters. I first ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record.
    Any answers to written questions provided by the witnesses 
also be included in the record without objection; so ordered. 
Second, I ask unanimous consent that all exhibits, documents 
and other material referred to by members and witnesses may be 
included in the hearing record and that all members be 
permitted to revise and extend those remarks without objection. 
It is so ordered. Finally, I ask unanimous consent that all 
members present be permitted to participate in the hearing. 
That objection is so ordered.
    Our first panel as it is the custom of a Federal oversight 
committee is a Federal Government panel and it's composed of 
Mr. Kenneth Smith, the Special Agent in charge of the Atlanta 
office for the U.S. Immigration and Customs Enforcement [ICE]. 
If you'll stand and raise your right hand. As you know it's the 
standard practice of our witnesses to be sworn in as an 
oversight committee.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. Thank you very much for coming and we look 
forward to your opening statement and any questions.

       STATEMENT OF KENNETH A. SMITH, SPECIAL AGENT, ICE

    Mr. Smith. Thank you, Chairman Souder, Congresswoman 
Myrick, Congressman McHenry.
    Mrs. Myrick. Pull your mic back. We're having trouble 
hearing in the back so everybody needs to talk into the mic.
    Mr. Smith. Is that better.
    Mrs. Myrick. Yeah.
    Mr. Smith. Thank you very much for allowing me to testify 
before you today to discuss the 287(g) program. I appreciate 
your continued support for the Section 287(g) program, which 
allows the Secretary of the Department of Homeland Security to 
enter into formal written agreements with State and local 
political jurisdictions to train and authorize State and local 
law enforcement officers to perform immigration enforcement 
functions.
    Among the DHS law enforcement agencies, U.S. Immigration 
and Customs Enforcement or ICE has the most expansive 
investigative authority and the largest force of investigators. 
Our mission is to protect our Nation and the American people by 
targeting the people, money and materials that support 
terrorist and criminal activities. The men and women of ICE 
accomplish this by investigating and enforcing the Nation's 
immigration and customs laws. ICE recognizes that combating 
terrorism and criminal activity is best accomplished through a 
multi-agency/multi-authority approach that encompasses Federal, 
State, local and tribal resources, skills and expertise. 
Sharing information with and providing assistance to our State 
and local partners in law enforcement is critical to the 
success of DHS and to ensuring the safety of our Nation.
    Section 287(g) of the Immigration and Nationality Act 
provides for effective joint initiatives by allowing DHS to 
enter into written agreements with State and local 
jurisdictions for the purpose of training and authorizing State 
and local law enforcement officers to perform immigration 
enforcement functions. The Section 287(g) program involves 
rigorous, multi-week training that addresses the specific 
immigration authorities requested by State and local political 
jurisdictions. The training results in individual certification 
for each selected law enforcement officer who successfully 
completes the program. It also establishes the supervisory 
structure over the officers with authority under 287(g) and 
prescribes an agreed-upon complaint process governing officer 
conduct during the life of the agreement. Properly constructed, 
287(g) agreements are a dynamic and highly effective force 
multiplier for ICE and local law enforcement as we work to 
protect America's communities.
    The first Section 287(g) agreement was established in 2002 
in Florida, where officials were increasingly concerned about 
the number of terrorist-related cases in that State, many of 
which involved foreign nationals. This 287(g) agreement was 
established with the Florida Department of Law Enforcement for 
seven Regional Domestic Security Task Forces located throughout 
the State. The Florida task forces have initiated more than 200 
investigative cases and recorded numerous arrests.
    Building on the success of the Florida agreement, ICE and 
the State of Alabama signed a written agreement in September 
2003 to provide immigration enforcement authority to 21 Alabama 
State troopers. These troopers have been certified through the 
program and now have the authority to perform immigration 
enforcement functions incidental to their normal duties as 
patrol officers and at driver's licensing station. They are 
also trained and certified to transport and detain aliens 
unlawfully present in the United States.
    Most recently, ICE entered into agreements in California 
with the Los Angeles County Sheriff's Department, the San 
Bernardino County Sheriff's Department and the Riverside County 
Sheriff's Department. We have also entered into agreements with 
the Arizona Department of Corrections, and here in North 
Carolina with the Mecklenburg County Sheriff's Office. These 
agreements provide officers in each of these departments with 
statutory authority to perform the function of a Federal 
immigration officer in relation to identifying and processing 
for removal, under ICE supervision, criminal aliens 
incarcerated at their respective correctional facilities. These 
recent agreements bring the total number of 287(g) officers 
trained by ICE to 159 officers within seven distinct law 
enforcement agencies in five States.
    These partnerships not only result in the removal of 
additional criminal aliens from the United States, but also 
allow the limited number of ICE special agents currently 
assigned to jail-related duties to focus on more complex 
investigations in the field.
    Locally the Mecklenburg County Sheriff's Office and ICE 
entered into our agreement in February 2006. Ten deputies and 
two sergeants from the Sheriff's Office received Section 287(g) 
training in March 2006, graduated, and were certified in April 
2006. This partnership has already proven successful. Since 
their certification, Mecklenburg County Sheriff's deputies have 
identified numerous criminal aliens arrested for violating laws 
within Mecklenburg County, and processed them for removal from 
the United States.
    The ICE Law Enforcement Support Center, the LESC as it's 
known, is another long-established initiative that provides a 
wealth of information to Federal, State and local law 
enforcement personnel. The LESC allows all State and local law 
enforcement officers to request information electronically 
concerning foreign-born individuals that they encounter during 
their normal duties. The LESC is a 24-hour-per-day, 7-day-a-
week law enforcement center that provides comprehensive 
immigration--comprehensive immigration status and identity 
information about aliens suspected of, arrested for, or 
convicted of criminal activity, as well as real-time assistance 
to State, local, tribal and international law enforcement 
agencies.
    ICE has effectively used the LESC to consolidate and 
enhance its response to its law enforcement partners seeking 
assistance in immigration-related enforcement matters. Since 
June 2004 the LESC has placed more than 35,000 ICE immigration 
detainers with law enforcement officials in all 50 States and 
the District of Columbia.
    Most of these immigration detainers were lodged against 
individuals with significant criminal histories.
    ICE will continue to establish and augment effective 
partnerships and information sharing with State and local law 
enforcement agencies. Such partnerships are essential to our 
mission of deterring criminal alien activity and threats to 
national security and public safety. We are grateful for the 
many State and local law enforcement officers who assist ICE 
daily in our mission and we are pleased to assist them. I'd 
like to emphasize that in my three-State area of responsibility 
which includes North Carolina, South Carolina and Georgia we 
cannot effectively accomplish our mission without the daily 
interaction of our State and local partners. Thank you again 
for inviting me and I will be glad to answer any questions you 
may have.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.006
    
    [GRAPHIC] [TIFF OMITTED] T6029.007
    
    [GRAPHIC] [TIFF OMITTED] T6029.008
    
    [GRAPHIC] [TIFF OMITTED] T6029.009
    
    [GRAPHIC] [TIFF OMITTED] T6029.010
    
    [GRAPHIC] [TIFF OMITTED] T6029.011
    
    [GRAPHIC] [TIFF OMITTED] T6029.012
    
    [GRAPHIC] [TIFF OMITTED] T6029.013
    
    [GRAPHIC] [TIFF OMITTED] T6029.014
    
    Mr. Souder. OK. I will yield to Vice Chairman McHenry to 
start the questioning.
    Mr. McHenry. Thank you, Mr. Chairman. Thank you, Mr. Smith, 
for your testimony. I appreciate your perspective. You 
mentioned the Law Enforcement Support Center. Can you give us 
more details on what exactly you do there and how that's being 
utilized.
    Mr. Smith. Sure. The Law Enforcement Support Center is just 
that. It's a support center located in Burlington, Vermont. 
It's staffed 7 days a week, 24 hours a day.
    It is available to not only ICE agents but to all State and 
local law enforcement officers that would like to query an 
individual to determine if they're in immigration data bases. 
That system is available to them for electronic--electronic 
query through the NCIC system.
    Mr. McHenry. So all law enforcement are able to access 
this.
    Mr. Smith. Yes, sir.
    Mr. McHenry. And do you have some statistics on how it's 
being utilized.
    Mr. Smith. It's--It's greatly utilized. I believe 
approximately 600,000 queries are made to the LESC every year 
from both ICE--ICE agents and State and local officers. In 
North Carolina there has been a tremendous increase in the use 
of the LESC. I believe to date this fiscal year we had about 
2,700 queries from North Carolina law enforcement agencies.
    Mr. McHenry. 2,700.
    Mr. Smith. 2,700. Out of those 2,700 roughly 300 detainers 
have been filed by the LESC with those departments on 
individuals that they've queried through the system.
    Mr. McHenry. Is there an outreach program to law 
enforcement to let them know that this is available to them.
    Mr. Smith. There is. Actually the LESC works very closely 
with various State agencies responsible for the IT 
infrastructure system, the criminal history queries that are 
made by each State. I know that there is a training opportunity 
coming up in North Carolina. I believe they're doing a 
presentation to about 300 operators of that system in North 
Carolina this fall.
    Mr. McHenry. I also know that North Carolina recently 
signed a Fugitive Operations Team or Fugitive--yeah--Fugitive 
Operations Team if my memory is correct. Can you describe the 
function of that and how that works.
    Mr. Smith. Yes, sir. There are two Fugitive Operation Teams 
in North Carolina. Those are managed under the control of our 
Detention and Removal Section. There is a team in Charlotte 
that is fully operational now. There is a team being formed in 
Raleigh that is partially operational; will be fully 
operational this fall. Their focus is to identify and apprehend 
aliens that have an outstanding order of removal from the 
United States. Those that are--are immigration fugitives that 
have been here already.
    Mr. McHenry. And how many folks are on that team? How is 
that staffed.
    Mr. Smith. I'm not responsible for those teams but I 
believe each team is--is eight individuals.
    Mr. McHenry. OK. Are there any additional resources that 
you need in order to perform your--your job? It's an obvious 
question. The answer is yes. If you could elaborate----
    Mr. Smith. Thank you.
    Mr. McHenry [continuing]. On the yes.
    Mr. Souder. But I would like to hear it. I have a similar 
question; that it seems like an obvious question but although 
we can't get that information directly that's partly why we go 
out in the field because in Washington the official answer is 
no. We don't think that's true. We would like to hear what your 
needs are.
    Mr. Smith. Obviously our workload is overwhelming and I 
think that any Federal, State or local law enforcement official 
that you'll ask will always say that they could use more 
resources. We do the best that we can with what we have and we 
feel that we do a very good job of prioritizing the work that 
we are confronted with every day.
    Mr. Souder. So will you clarify that.
    Mr. McHenry. Yes. That sounds like a Washington answer.
    Mr. Smith. Certainly, Congressman, we have plenty of work 
and we could keep a large number of individuals very active in 
our work. There is no question about that.
    Mr. McHenry. Go right ahead.
    Mr. Souder. We're not--One of the awkward things in these 
kind of hearings is we're not trying to get people in trouble 
with their Washington office. Another way to ask the question 
is if you had more resources what would you do with them.
    Mr. Smith. We--We would continue to prioritize the work 
that we do. Our--Our greatest concerns are attacking the 
organizations that facilitate illegal immigration, the 
smuggling organizations, the trafficking organizations, working 
with the county facilities to identify the criminal aliens that 
are present in their facilities. We would fully employ all the 
resources that were provided to us.
    Mr. McHenry. How many folks do you oversee.
    Mr. Smith. Approximately 200 in a three-State area.
    Mr. McHenry. 200 in a three-State area.
    Mr. Smith. Yes.
    Mr. McHenry. How many approximate numbers from North 
Carolina.
    Mr. Smith. Congressman, if I could I would like to address 
that after the hearing if we could. Typically for operational 
concerns we don't release the number of agents that we have in 
any one particular area.
    Mr. McHenry. Certainly. So you could use additional 
resources.
    Mr. Smith. Certainly.
    Mr. McHenry. All right.
    Mr. Smith. I think we do a good job prioritizing work with 
what we have.
    Mr. McHenry. Thank you.
    Mr. Smith. Thank you.
    Mr. Souder. Congresswoman Myrick.
    Mrs. Myrick. One question, you know, I don't know if you 
can answer or not but I know that 287(g) was signed into law 
about 10 years ago and it wasn't until 2002 that the program 
started to be utilized and I guess my question is for 
historical background do you know why it took so long for it to 
get to that point of being used and then since then what's been 
happening across the country?
    Mr. Smith. I don't. I can speculate that there was 
significant changes made obviously after the events of 
September 11th in the creation of the Department of Homeland 
Security and actually the creation of my agency on Immigration 
and Customs Enforcement----
    Mrs. Myrick. Right.
    Mr. Smith [continuing]. And I think when that occurred we 
immediately with Congress's help began looking at ways to do 
our job to be as effective as we could possibly be in a variety 
of areas and I think 287(g) was one of those things in the law 
that had not been, quite frankly, utilized with full success 
before that time and after the merger with the Immigration and 
Customs Service cross-designating officers--local officers was 
nothing new for the Customs Service. We had cross-designated 
officers for years to enforce customs laws, Title 19 laws, and 
I think it was something we're very comfortable with and I 
think part of that also played into the expansion of the 
287(g).
    Mrs. Myrick. I know that we were recently told that ICE 
nationally is doing a contract study on what the needs really 
are across the country so I suppose that will give us more 
information relative to what needs to be done but, you know, 
Congress did authorize a lot of money just recently for 287(g). 
I've got $15.5 million for training; $23.1 million for the Law 
Enforcement Support Center; $11.4 million for more bed space 
for detainees. I guess part of the question is do you think 
that's really going to be adequate for the needs? I mean, what 
we're seeing all the time is that no matter how much is being 
done there really just seems to be more need constantly and now 
it's nationally in the interior States as well. You know, are 
we ever going to get ahead of this game? And that's part of 
what we are trying to find out, you know, from you as to what 
the needs are. I mean, you know, where can we go with this 
because the public is totally frustrated, we're totally 
frustrated, I know you all are totally frustrated and something 
has to be done to hit the nail on the head.
    Mr. Smith. Well, I can say I believe that the 287(g) 
program that has been implemented in Mecklenburg County by 
Sheriff Pendergraph and our office here is a model that will be 
used around the country. It is a very good program, they've 
done an outstanding job of establishing it and I think it will 
be mirrored in jurisdictions throughout the country. This 
program really is--is in its infancy and I don't think we know 
yet how it will be embraced by law enforcement agencies 
throughout the country. There are different points of view from 
different departments whether or not they will seek the 
authority or not and I think we will be prepared to respond to 
those agencies that are interested in pursuing the 287(g) 
authority.
    Mrs. Myrick. You don't have anything to do with the 
detention part of--I mean, the bed space part of this issue.
    Mr. Smith. No, I don't. We work very closely with Detention 
and Removal Operations because their ability to detain aliens 
certainly impacts our operational work----
    Mrs. Myrick. Right.
    Mr. Smith [continuing]. And so we work very closely with 
them to coordinate the detention of individuals that we arrest 
on criminal investigations or those who have criminal aliens in 
the jails.
    Mrs. Myrick. Well, that is one of our biggest problems as 
you probably know for this area. I just have one more question, 
if I may, Mr. Chairman, and I know that Sheriff Pendergraph is 
going to testify but he's had cases--I know of one particular 
case of an illegal that has been deported 22 times and back in 
the country. How many times does an illegal have to be deported 
before we take criminal action against them.
    Mr. Smith. Well, I believe a minor point of clarification, 
oftentimes we will encounter aliens that have been removed and 
it's a legal difference really; expedited--I'm sorry--a 
voluntary departure. Somebody who is arrested on the Southwest 
border and voluntary--voluntarily returns under the law, that 
is not a deportation, but we will make a referral to the U.S. 
Attorney's Office on each and every re-entry case that we come 
across. So every time that we encounter an alien that has been 
deported and enters the United States that's a Federal felony 
and we make those referrals to the U.S. Attorney's Office.
    Mrs. Myrick. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. I wanted to pursue a little more in depth about 
the questions and let me see if I can sort this through. As 
Special Agent in charge in Atlanta you oversee North Carolina, 
Georgia and South Carolina? Did I----
    Mr. Smith. Yes, sir. The Office of Investigations.
    Mr. Souder. And so in your--your regional office you're in 
charge of investigations and there is a separate special agent 
in charge of deportation.
    Mr. Smith. In Atlanta my counterpart is the Director of 
Field Operations for Detention and Removal Operations.
    Mr. Souder. And that when--This falls directly under the 
last question. When somebody is--enters illegally and then 
convicted of another crime and then they go back across and 
come back in is there a cumulative penalty that's building? In 
other words, if--if you investigate a case where somebody has 
committed the crime of illegal entry then got arrested on a 
DUI, deported, they come back in again on an illegal entry and 
then either you pick them up in a--one of your divisions on a 
detention and removal or a drug case, a DUI for some reason, do 
we have a law of building a cumulative penalty or each time do 
they just get penalized for the crime that is in front of us? 
In other words, when you have a multiplicity of crimes is there 
a disincentive to continue to build your criminal record.
    Mr. Smith. I would--I wouldn't be able to respond to the 
committee on--specifically to that question. It certainly plays 
into the--the decision of the U.S. Attorney's Office on whether 
to pursue that case criminally based on the number of re-
entries that an individual may have, the type of crimes they 
were previously convicted for and that sort of thing. Re-entry 
after deportation again is addressed by the U.S. Attorney's 
Office and I'm not sure that the number of previous removals, 
whether that factors into the sentencing guidelines that would 
be used or not but I can clarify that.
    Mr. Souder. Because I understand because there are--
underneath your question--underneath your answer which I 
believe also to be accurate from other hearings is that what 
you have in effect said is that the U.S. Attorney is relatively 
overwhelmed already and, therefore, really can't take all of 
these kind of cases so one of the decisions of whether to 
prosecute and what level to prosecute is often determined by 
how many violations. At hearings, you know, in El Paso multiple 
times they don't even detain someone or they weren't detaining 
someone until they caught them the 17th time that they've since 
had to--they basically gave up for a while, now they're once 
again tracking that and it makes it a very difficult problem 
for local law enforcement if, in fact, they even go through 
this whole process and then we don't have a secure border and 
they come back in again and that one of the things we need to 
look at legally in addition to as we work through whatever we 
do work through on--on work permits or some type of way to work 
through with here, clearly your previous record needs to be 
part of that and--as well as speaking English; that there are 
certain things that need to be part of this negotiation and 
it's very troubling that, in fact, that in effect to the 
earlier question of you could use more resources, in fact, if--
that suggests probably the U.S. Attorney could use more 
resources, we're trying to get--at least we've authorized but 
not necessarily appropriated yet adequate resources for 
detention facilities because what you're facing here is an 
incredible challenge and we're basically shooting with a 
peashooter which is what we're talking about, local law 
enforcement.
    Now let me ask another question. Of the--If you had--You 
said you have 200 people working----
    Mr. Smith. Yes, sir.
    Mr. Souder [continuing]. In three States. If you had 
another hundred could they be busy.
    Mr. Smith. I believe we could keep another hundred special 
agents busy, yes.
    Mr. Souder. 200.
    Mr. Smith. Impossible for me to say but as you're well 
aware the workload can be overwhelming and at what number we 
would be--would not be busy any longer, you know, it would only 
be an estimate.
    Mr. Souder. And in your experience in working--looking at 
investigations if there are--anybody who has ever been on the 
border knows that we're just wild guessing that there are 10.5 
or 12 million. What we know is who we pick up; not who we're 
missing. But that's as good a wild guess as there is and if 
it's 300,000 to 500,000 in North Carolina basically with 
whatever percentage of 200 agents that we're using we're 
talking here a focus on--your investigation is focused on 
presumably criminal investigations beyond just illegal entry to 
the United States, thresholds of drug crimes, other crimes for 
deportation, would that be true.
    Mr. Smith. Yes, sir. We are responsible for immigration 
enforcement as well as enforcement of the customs laws from our 
agencies and that would include drug trafficking, drug 
smuggling, human trafficking, illegal exports of equipment out 
of the United States to other countries. A wide variety of 
responsibilities.
    Mr. Souder. So, for example, we're not really talking here 
about deportation----
    [Ms. Foxx enters the room.]
    Mr. Souder [continuing]. For illegal immigration because to 
get 500,000 people you would need a lot more--even more than 
200 agents when they come back. We're really talking here of 
how many agents for crimes in addition to illegal entry of what 
you need, would that be a fair statement? That when I said 
another hundred, another 200 you were talking about a workload, 
not just trying----
    Mr. Smith. Investigations of criminal aliens, yes, sir.
    Mr. Souder. And investigations of criminal aliens by your 
definition ICE is not just--is not even predominantly illegal 
entry in the United States, it's criminal investigations of 
illegal entry plus other things, is that fair to say.
    Mr. Smith. It would be a wide variety of things. Our first 
concern, obviously our No. 1 priority is national security. 
Anything that we can do to deter acts of terrorism is first and 
foremost on our agenda. We're very active with our--the Joint 
Terrorist Task Forces in all the areas in the three-State area, 
we play a key role in that task force, and then public safety. 
Those criminal aliens who pose the greatest public safety 
threat to the public would be a second part of that.
    Mr. Souder. Secretary Chertoff working with Congress has 
finally aggressively gone to detainment of OTMs when caught 
other than Mexicans. That--Is this being implemented by the 
internal part of the Nation as well as the border that there is 
a--that if you get an OTM that they're detained as a priority 
and not released on their own recognizance to show up of which 
92 percent don't show up; the 8 percent who do show up you 
wonder about; that the OTMs we understand at the border are now 
being held. Is that true in your region if you get tipped off 
of an OTM and do you--do you differentiate between an OTM which 
would include Guatemala say and the Middle East.
    Mr. Smith. It's my--my belief that the differentiation is 
based on the underlying--the underlying reason for their 
arrest, how they--did they come to our attention; the other 
factors, gang members; are they a public threat, are they visa 
overstay concerns. Those individuals would be detained. I would 
say that over the past 60 days or so there has been a 
tremendous effort by not only my office but by the Office of 
Detention and Removal or the Office of Investigation in our 
area to detain all aliens that we encounter and we've worked 
very hard at that over the last 60 days and have detained very 
large numbers of aliens.
    Mr. Souder. Obviously my question came very close to 
profiling which legally is--is hard; however, we do have 
countries on a watch list; if you're on a terrorist list, OTMs 
from those countries would presumably be a priority. Also 
people on watch lists would presumably be a priority and I 
wondered as an internal inside the U.S. policy if you get a tip 
that there is an OTM in the region and they for whatever reason 
have been picked up even if it's just illegal immigration, if 
they're an OTM from the country on the watch list or a person 
on the watch list presumably we detain them and hold them and 
don't release them on the street.
    Mr. Smith. We refer to that as--to those individuals as 
special interest aliens----
    Mr. Souder. People of special interest.
    Mr. Smith [continuing]. And that would be accurate.
    Mr. Souder. And do you have adequate detention facilities 
for those.
    Mr. Smith. Yes, sir.
    Mr. Souder. And have you had many persons of interest in 
your region.
    Mr. Smith. Certainly in our three-State area with the 
population that we have we often encounter special interest 
aliens.
    Mr. Souder. And do you sense that most of those come 
through the Southwest border.
    Mr. Smith. I would have to--I couldn't respond directly to 
that for my area but certainly the Southwest border isn't the 
only threat. Visa overstays, individuals that come here legally 
but overstay their visa would be another problem.
    Mr. Souder. In the higher-risk population what percentage 
would you say are visa overstays? Half? Just ballpark. I'm not 
going to--We're not going to hold you to it because a lot of 
people think of this as just a border question. The visa 
overstays are emerging from these hearings as a major problem 
particularly in higher-risk areas where they're not in direct 
employment questions.
    Mr. Smith. I feel comfortable in saying without having 
those numbers immediately available to me that the majority 
would be overstays.
    Mr. Souder. And the--I think at this point our Congress--
another member of our subcommittee, Congresswoman Virginia 
Foxx, is--is here. She had when she was first introduced to the 
Republican Conference my favorite introduction of any member 
that there ever was from Cass Ballenger from North Carolina as 
a spirited mountain woman. Would you like to make any comments.
    Ms. Foxx. I have a statement but you're doing such a good 
job, Chairman Souder, that I think you ought to continue and I 
just want to say thank you for coming and it's obvious from the 
crowd here that there is a great deal of interest in this area 
and I want to thank Congresswoman Myrick and Congressman 
McHenry for organizing this meeting.
    I do have a statement I'll give a little later but you're 
doing a great job and I think you ought to continue.
    Mr. Souder. Thank you. Let me just ask a few more questions 
but first I understand that basically----
    Mrs. Myrick. Mark, you need to use the microphone.
    Mr. Souder [continuing]. That I--There is a little 
feedback, too, so it's kind of a double----
    Mrs. Myrick. Yes. That's true.
    Mr. Souder [continuing]. That--and I appreciate very much 
the work ICE is doing. You're in an incredible politically 
difficult situation because here in North Carolina like Indiana 
it's not clear where we even meet our employment--so you're 
getting pressure from both ends, pressures on profiling, lack 
of adequate staff, lack of detention beds, a frustration among 
agents that if you actually make your case and get somebody 
deported they come right back in. It's an incredibly 
frustrating process. Nevertheless, it's something that clearly 
you cannot have security in the United States until we do this. 
We have a huge change of individuals in the United States that 
we don't know who they are, we don't know what it means in our 
political system or economic system and it's a huge challenge 
and that's what we're trying to sort through. This isn't meant 
to be critical of ICE but we're trying to zero in----
    Mr. Smith. Absolutely.
    Mr. Souder [continuing]. On your particular needs that--I'm 
still--Of the--How often do you when you work a deportation 
case through an ICE investigation on narcotics, on other 
criminal activity that--how often do you see after the person 
has served that you run into the same person again and they're 
an illegal.
    Mr. Smith. That's difficult--difficult to say and obviously 
it does occur but we've been very active, for example, in--in 
the entire three-State area but particularly here in North 
Carolina with our Community Shield Program where we've 
aggressively addressed the transnational gang problem and I 
think we have arrested and removed somewhere near 400 gang 
members since the initiation of the program in May 2005 and 
using that as a--that program as a gauge I know that we have 
encountered some gang members that have re-entered but it--
surprisingly it is not a tremendously large number. We have not 
seen a great deal of that in that particular segment of our 
work.
    Mr. Souder. Now in the particular State and local law 
enforcement training do you find that there is more demand for 
this program than you are able to have trainers at this point.
    Mr. Smith. The--The expansion of the program to--to areas 
such as Mecklenburg County there is no question it is a great 
force multiplier; it's a great program. It does add additional 
responsibilities to our current staff in our office. So, yes, 
the program does add additional work--an additional workload to 
our office. We believe that workload is--is time well spent by 
our--by our agents and managers because of the return on the 
investment.
    Mr. Souder. So there is two questions here. Actually my 
question is more related to if more departments wanted to train 
personnel do you have adequate staff to train them but you also 
said the additional part of this is when you train them they 
detain more people and then you have more detention and removal 
work and the U.S. Attorney has more work as well, which we need 
to make sure we address in Congress but if you could also 
answer the question if every county in North Carolina suddenly 
said that they wanted to be cross-trained how would you meet 
that need.
    Mr. Smith. That would be difficult. The--The--Really two 
issues. The training for the program is a separate issue and 
handled centrally, if you will, coordinated by our 
headquarters. They provide the trainers and the material and 
the dates for classes would be coordinated by--by our 
headquarters and done centrally, not--not by our individual 
offices. The--Where it does impact us is the oversight role 
that our agents play and our supervisors play working jointly 
with the local and county officers that are involved in that--
that program.
    Obviously if we encounter more aliens and process more 
aliens for deportation the workload goes up and, again, that--
as you mentioned that goes to everyone involved in the process, 
the Deportation and Removal Division, the U.S. Attorney's 
Office, the Immigration Court.
    Mr. Souder. And I know this is a dicey question and I hope 
will ask--this will be my last and see if any of my colleagues 
would like to ask any additional questions--that--that 
presumably you have--certainly the U.S. Attorneys have to have 
thresholds of cases that they'll say--you alluded to that 
earlier--we don't particularly want to announce precisely what 
those thresholds are because what we have found is that when 
the threshold is announced on how much narcotics then everybody 
gets like one pound less, that--that you--but there are 
thresholds here but when State and local law enforcement which 
is already financially strapped make these cases I'm sure one 
of the frustrations that we're going to have is increasingly 
people hear this heavily in Arizona and increasingly in Texas 
and New Mexico as well when we hold hearings in those areas 
that local law enforcement will take the initiative and then 
the Federal agents won't do anything about it. That given the 
fact that your thresholds are going to be very high and that 
while you didn't say you were underfunded because you're being 
as efficient as you can with the resources that you have 
suggested that you could use double even, keep your people 
busy, and that would still be a threshold question with the 
U.S. Attorney's Office, is do State and local law enforcement 
get any reimbursement for detention? Do they get any 
reimbursement if the local prosecutor--can the local prosecutor 
handle this type of thing? Do we need a supplementary strategy 
that if--a legal strategy that if a local community wants to 
impose a lower threshold than the Federal strategy guidelines 
that somehow we address some kind of assistance with that 
because you're unlikely--if you only have a few communities 
around the United States that are tapping into this depending 
on their local politics those communities are going to 
disproportionately influence the regional office. For example, 
Georgia around Atlanta has--the district has at least the same 
pressure that's in this area but if his local political 
situation hasn't done that you could have all your ICE 
investigations in someone over here and the question is do we 
need a supplemental strategy for things that don't meet the 
Federal threshold?
    Mr. Smith. As it develops I certainly think that is an area 
that will need to be looked at. I think the goal of the program 
really is--is two-pronged. One certainly would be to identify 
those criminal aliens that would be subject to additional 
criminal prosecution but as we are doing in Mecklenburg County 
the real beauty of the program is that it identifies and 
provides an encounter with a trained cross-immigration official 
to every formal individual that enters that facility so it 
allows us to begin that process which would not have 
necessarily a huge impact on the criminal system, the legal 
system; it certainly would on our Detention and Removal 
capabilities, but really two-pronged, but I think you're 
correct in that the more individuals that we encounter the 
greater pressure we're going to place on--on criminal leads 
also.
    Mrs. Myrick. I know you said you don't want to answer this 
publicly but I do afterwards want to talk to you because I want 
to know how many agents are in North Carolina. We continually 
appropriate money in Congress for North Carolina for people and 
they are routinely kept in the Atlanta office and we don't get 
them so just if you will be so kind as to share that with me 
privately I would appreciate it and thanks for being here.
    Mr. Smith. Thank you.
    Ms. Foxx. I would like to--I have an interest in what 
you're saying about--and I like to use the word education 
instead of training in terms of educating local law enforcement 
people to help expand what you're doing and I--I appreciate 
what the chairman said. We hear a lot of criticism of the 
agency not doing all that it should be doing but we realize 
there are many frustrations that you all have in trying to get 
your job done. I have some ideas I think on ways that we could 
expand the programs that you have for educating local law 
enforcement people and one question that came to my mind that 
hasn't come up before, it seems to me that the ICE folks have 
certain kind of education that they go through. Do you see that 
there are skills that the local law enforcement people have 
that are particularly valuable in the work that you need to do? 
It would seem to me that the combination of the two but aren't 
they having some skills particularly in dealing with the 
criminal element that perhaps aren't there in the education 
programs that the ICE people have.
    Mr. Smith. Well, absolutely, there is no question that we 
rely heavily on our day-to-day partnerships with local law 
enforcement and it's critical to--to our work. I have been in 
Federal law enforcement for over 20 years and developed just 
such outstanding relationships with--with State and local 
officers because they are what--what we depend on to get our 
job done whether it be in an investigation of criminal 
immigration investigation or--or customs, we--we rely very 
heavily on them. They're key partners certainly.
    Ms. Foxx. Mr. Chairman, I don't know--I'm sure all of you 
all have done opening statements and I have an opening 
statement to make but I want to share an idea that I've--has 
come to me as a result of reading over the material and 
preparing for today's meeting that I want to explore in some 
depth not just with Mr. Smith today but I hope that the 
chairman and others will work with me on. I'm a former 
community college president and as I was reading the material 
and talk--thinking about this issue of how we can do a better 
job of collaboration and coordination between and among local 
and State law enforcement people and the ICE folks it occurred 
to me that we are not utilizing a fabulous system and resource 
that we have particularly in the State of North Carolina that 
I'm familiar with but it's really a resource throughout the 
country and that's the community college system.
    Our law enforcement agents in the State of North Carolina 
and especially--are primarily getting their education and their 
training through the community colleges and I--I'm proposing 
that we utilize our community college system to expand the 
program accessibility. You mentioned that the program now is a 
central program and it's not a very expensive program in the 
sense of it costs now about $520 for the materials for somebody 
to go to the program but it's a 5-week program and if people 
have to go to a central location and either stay there 5 weeks 
and travel back home during that time it's got to be a very 
expensive program. And it would seem to me that we could really 
expand our capabilities for a fairly small amount of money in 
the grand scheme of things by being able to provide certified 
educators from ICE to go into the community college system and 
provide this curriculum to what--to do a trainers program or an 
educate-the-educators program and then be able to offer those 
programs through the community college system and it would seem 
to me that even could be integrated into the criminal justice 
programs that exist and every community college I believe in 
the State of North Carolina does some form of basic law 
enforcement education and it either has a criminal justice 
program or is affiliated with one of the community colleges 
that does, and I think that we need to investigate how we might 
be able to present a model program in the State of North 
Carolina that could then be used by community colleges all 
across the country but I'd like for my colleagues and I to 
explore this possibility of doing that. It is bound to be 
useful as a possibility but particularly, again, to provide 
that certification close to home and help us be able to help 
you more than we're able to do that and also, again, make it 
very affordable. So I'm going to make a formal proposal to the 
chairman again and to--to my colleagues that we look into that 
possibility and work with the community college system in North 
Carolina and with the people who administer your centrally 
administered program to see what we might be able to do.
    Mr. Smith. Yes, ma'am. And I should clarify for the 
committee. The program is managed centrally by--administered at 
the local level near where the department is located but 
certainly, I think you're right, it's interesting and we can 
pursue that.
    Mr. Souder. I want to--I have spent an incredible amount of 
time on this issue on the border as narcotics chairman then 
last fall we did so-called community hearings for 8 weeks in a 
row arguing about how we planned to do this policy and I'm an 
aggressive border enforcement, aggressive English, aggressive 
secure I.D. but struggling with the work permit question 
because Indiana, my district, would dry up and blow away right 
now if we actually ordered that done but if we actually get--
companies would just move to Mexico--that--before losing their 
business to China--and working this out is a huge challenge but 
I have been very troubled as we get in to talk about how we 
would actually do work permits because most companies who are 
hiring illegals are not doing direct job hires. It's often day 
bidders for dry wall, motels increasingly contract out their 
cleaning services, those cleaning services then do temp 
services. Much of this is in the underground economy; people 
who work as plumbers' assistants who aren't being reported as 
income in the first place.
    Now if Congress somehow under pressure from the President 
in the next 30 days would pass a work permit bill you are the 
agency that would have to enforce this and there are all of a 
sudden 200,000 people here in North Carolina with work permits 
and you are already telling me that over half of the people 
here that you deal with in investigations are visa overstays. 
How in the world without an incredible number of agents would 
you ever enforce work permits?
    And--And I don't think we've even raised this subject.
    I'm on the Work Force Committee and Subcommittee in Energy 
and Work Force; I've never even heard anybody address this 
question because we've all focused on the border. But if your 
No. 1 challenge is visa overstays what--how would you do this? 
Are you--Have you even been having an internal discussion at 
ICE in Investigations and in Detention and Removal of what you 
would do if suddenly Congress in the next 30 days gives you 10 
or 12 million people with work permits with the promise to the 
American people that it's going to be a limited time period and 
once their permit is over you're going to deport them?
    Mr. Smith. I know that issue is of significant concern to 
Assistant Secretary Myers who at the headquarters level and 
policy level has been looking into different scenarios of how 
we would support the program and what challenges we would face 
potentially as a result of that. I have not been involved in 
any of those meetings but can certainly pursue that for the 
committee. I think as----
    Mr. Souder. Because that would in effect Federalize all the 
crime. In other words, a visa overstay is a Federal crime, not 
a local crime. A work permit overstay would be a Federal crime 
and you would be dealing with hundreds of thousands. How many--
Do you do right now in investigations 500 a year.
    Mr. Smith. I don't have that number available, sir, but I 
would certainly----
    Mr. Souder. Like how many investigations currently could 
you even handle, and we'll ask a similar question to Detention 
and Removal for the hearing record, because the scale of this 
would have to be done exponentially and this would need to be 
calculated or a budget calculation--I've seen all kinds of 
budget estimates but never this question of work permit 
overstay or how you enforce it because I have been talking to 
my RV manufacturers and others and saying: Look, if you get a 
work permit here, you know, how are the employers going to know 
if a person goes to North Carolina from Indiana on the work 
permit; somebody has to track that because you could do--if 
it's a 5-year work permit it's 5 years in North Carolina and 5 
years over in Indiana that--how do we do this? Because this 
potentially in your department--I mean, 200 people. My lands.
    Mr. Smith. As a law enforcement officer, sir, I certainly 
agree that any movement in that direction significant 
consideration has to be given to counterfraud measures; how we 
anticipate responding to the attempts to subvert the program.
    Mr. Souder. Are coyotes a current priority because that 
would become a bigger problem here, too. Coyotes would be the 
people who put the packages together who recruit the people who 
come across to provide the transportation from the border. A 
lot of the businesses in the United States are actually willing 
to pay back the people who--sometimes $8 to $12,000 for a full 
package into the job site which the $8 to $12,000 which we have 
testimony from Julie Myers as well as former Assistant 
Secretary Garcia, that was $8 to $12,000 for a Mexican, up to 
$30,000 for someone from a Middle Eastern country; that's all 
been testimony, not classified, that would include the full 
thing, including an illegal green card and the transportation 
and overnight to make sure he got in. Testimony at a hearing 
recently in the Southwest suggested it was like $300 if you got 
yourself to the border, $300 to $500 to get yourself to the 
other side of the border and then sometimes you contract then, 
sometimes then you have a separate agent who is giving you a 
green card and providing you with a job and housing as you line 
that up. Is that a primary part of your investigation right 
now, creating networks?
    Mr. Smith. Yes, sir, it is. And it is one of the areas that 
we've worked I think very creatively in and that is following 
the money trail which we have done for years in our drug 
investigations, money laundering investigations but we're now 
applying that to our immigration, alien smuggling 
investigations, that sort of thing; it's been very effective. 
So following the money is key to any criminal activity and 
we're certainly applying that in this area. I would like to 
clarify one thing. I think I responded to the question about--
regarding special interest aliens saying that I believe or it 
was my opinion that the majority of special interest aliens 
that we encounter are visa over- stays. Not all of the 
individuals that we encounter. I limit that to the special 
interest aliens.
    Mr. Souder. Yes, sir. That was my understanding it was a 
special interest which is obviously the highest target but what 
we--what my understanding is from our Washington testimony is a 
fair percentage of others are also visa over- stays, often day-
visit overstays along the border, student visa overstays, 
vacation overstays. Looking at the desk in Venezuela, looking 
at narcotics issues in those areas that often they're coming to 
Disney World and we have to make adjustment. Are they really 
coming to Disney World and then jumping visa or are they coming 
to Disney World? It was amazing. One day at the Venezuela desk 
40 percent of the people that day coming for a visa had an 
invitation to an insurance conference at Disney World and many 
were turned down but a number of them came with kids and they 
were let in and they thought they were really going to Disney 
World. Of course, you can get kids for hire, too. It is a 
huge--And we have these people that are literally in U.S. 
protection, is based on that visa desk to the degree that they 
come in legally. Now in Mexico as Jay Leno says: Just follow 
the person in front of you. So it's a little bit different type 
challenge but as we look at even the formal process that's why 
we get visa overstays, we've seen a drop in our college 
attendance; we try to tighten this and it's hurt us because 
many of these students from around the world who would go back 
home now are less supportive of America in their countries 
because they're not spending time here.
    There are consequences if we tighten too close. On the 
other hand, the visa jumps are a huge challenge to us right now 
and the OTMs are the highest risk part of that. Any other 
questions? Thank you very much for your time. Thank you for 
your willingness to come today and field our questions. We may 
have some additional written questions and obviously the 
members have some questions about regional things that they 
would like to talk to you about privately.
    Mr. Smith. Thank you very much.
    Mr. Souder. If our second panel could come forward we're 
going to take a very quick break. My family is going to need to 
figure out where they are.
    [Recess.]
    Mr. Souder. The subcommittee will come to order. We're 
going to try holding the microphone so that the people upstairs 
can hear better and if each of the witnesses could do that, 
too, when you testify, if you hold that the feedback problem 
that we had, it will help everybody hear better. Our second 
panel is the Honorable Alan Cloninger, sheriff of Gaston 
County; the Honorable Michael Lands, district attorney of 
Gaston County; the Honorable Jim Pendergraph, sheriff of 
Mecklenburg County and Ms. Emily Moose. As you heard as an 
oversight committee it is our standard practice to swear in all 
of our witnesses so if you'll each stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. It would be really embarrassing 
if we had to prosecute anybody here for perjury so--It's a 
little interesting footnote, Mark McGwire would have been the 
third one in I believe. He didn't want to talk about the past 
but in an oversight committee that's what we do, we talk about 
the past, and try to figure out how to address the future. It 
took us--you'll appreciate this--3 days to serve his subpoena 
because he wouldn't come voluntarily and he moved cities to try 
to avoid coming before Congress to give testimony. Rafael 
Palmeiro isn't being prosecuted for perjury, although he spent 
2 months trying to--when he said he didn't use steroids and 
then we found out that he flunked his test. The only reason he 
isn't sitting in jail is that we couldn't establish precisely 
whether he was on a steroid at the time that he said it or 
whether the--because he only had to test and apparently that 
was post hearing but hopefully we won't run into that with 
sheriffs and U.S. (sic) Attorneys and Ms. Moose so--but it 
makes our committee interesting from time to time.
    You've heard from our first panel and some of our concerns 
at the Federal level and now one of the unique things that we 
get in the field hearing is to be able to hear from people 
right on the front lines who are dealing with this day to day 
in their home environments and at length which is really 
unusual today and we have four Members of Congress here and I 
appreciate the North Carolina delegation being here and we look 
forward to each of your testimony. We'll start with you, 
Sheriff Cloninger.

      STATEMENT OF ALAN CLONINGER, SHERIFF, GASTON COUNTY

    Mr. Cloninger. Thank you, sir. On behalf of Gaston County, 
welcome to all of you being here today.
    Mr. Souder. If you can pick up your mic. One other thing I 
should say, we have a clock for 5 minutes. You knew that the--
there is a 5-minute--it's a take-down----
    Mr. Cloninger. Yeah. It's----
    Mr. Souder [continuing]. That we--in a field hearing we 
won't hold you close to it but it gives us some--some idea when 
we--particularly when we come to the South we do the 5-minutes 
for the Southern drawl so we'll be very flexible with that 
clock but it kind of gives us an idea.
    Mr. Cloninger. I promise I won't be that long-winded. Here 
in Gaston County last year we booked 640 nationals from 45 
different countries into the Gaston County Jail. Last November 
I met with Sheriff Pendergraph and we discussed the very issues 
that are coming up today and at that time we discussed this 
program, the 287(g) program, and he informed me that he was in 
the process of obtaining it with the help of Representative 
Myrick. I also talked to Ms. Myrick and expressed my interest 
in this; that we were going to wait until after Jim got it 
through to get it started. Then in February I applied for the 
program and finished the application and we--with the 
chairman's permission I would like to deviate from my statement 
to make a little announcement. Representative Myrick, thank you 
for attending the hearing. Thank you because as of yesterday 
the Gaston County Sheriff's Office has been approved for the 
287(g) program and we will be starting it within the next 60 to 
90 days. So I appreciate it.
    We look forward to this partnership with ICE and I have to 
be--I would be remiss if I didn't compliment Jeff Jordan--he 
said he was going to leave--the ICE agent from Charlotte. With 
his help and guidance we were able to do this. So thank you. It 
will make a difference here in Gaston County because I 
understand from Sheriff Pendergraph it has already made a 
difference in Mecklenburg. And so in that deviation I'll just 
drop on down because I was talking about needing the program 
and I've already got it. But the two issues that remain after 
that I think we have to be aware of is the cost and expense. I 
don't know what the cost and expense of operating a program in 
Gaston County would be and I haven't asked for any money there 
yet. We've got to see it first before that. But there may be a 
cost and expense that you may--not may but you should help us 
with because it is our taxpayers who are helping enforce this 
Federal law.
    Also the other side is the jail side. In Gaston County 
right now our jail is pretty much getting full and when we 
start getting these folks we're going to have to hold them; 
hold them somewhere. So you may look at ways, as I said in my 
statement, of maybe helping us fund expanding the Gaston County 
Jail so we have more bed space for these people; how to get the 
space locally. We don't have some other jail that you can use. 
We will need financial assistance particularly with the 
detention side because after talking with Sheriff Pendergraph 
his numbers are rather high already. So those two areas I think 
will be something that we will come back to you in this 
partnership with you which will do great good in this county 
and I think across the country. It's not only the illegal alien 
issue but the Homeland Security issue we have to be aware of so 
thank you for partnering with us and I'll turn it over to Mr. 
Lands.
    [The prepared statement of Mr. Cloninger follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.015
    
    Mr. Souder. Thank you very much. Mr. Lands.

  STATEMENT OF MICHAEL LANDS, DISTRICT ATTORNEY, GASTON COUNTY

    Mr. Lands. I am Michael Lands. I'm the elected District 
Attorney for Gaston County and I'm responsible for prosecuting 
all the criminal cases in Gaston County. Thanks for the 
opportunity to come and address you. What are some of the 
issues and problems that illegal immigrants charged with 
criminal offenses cause for a local court system.
    Well, one is the issue of identity. Is the person arrested 
who he said he is. Without proper identification and birth 
dates it's hard to know a defendant's true identity. Jails are 
not big enough to hold all the immigrants arrested without 
valid identification. We have numerous cases where an arrestee 
uses another person's name and does not appear in court. The 
warrant for arrest goes out in the original name and it's hard 
to know whether we'll ever arrest the true offender in those 
cases. Another identity issue is the fact that many illegal 
immigrants have several last names or hyphenated names that 
make it difficult to run record checks to see if an immigrant 
has a prior criminal record. And a final identity issue occurs 
because illegal immigrants move around so often it is difficult 
to know if a conviction in one State is for the same defendant 
charged in this State.
    A different issue is the fact that illegal immigrants will 
owe the person who helped them get into this country and that 
may mean that they get involved in criminal activity such as 
transporting drugs for them. Next you have the issue about the 
fact that increased illegal immigrants in the State impact the 
State court system economically.
    It means the jail is overcrowded, it means that there needs 
to be more State-appointed attorneys, it means there needs to 
be more translators for the court system. And then there's what 
I call the psychological issue, particularly when you're 
dealing with drunk driving deaths. All drunk driving deaths 
could be avoided if there is no alcohol consumption by the 
driver. Everybody understands that.
    When an American-born drunk driver kills someone in a crash 
the public feels the death could have been avoided. I believe 
the public has greater outrage when an illegal immigrant drunk 
driver kills because people believe the death would have been 
avoided. They believe if the illegal immigrant was not in this 
country they would not have drank and driven and killed in this 
country.
    And a final issue is the problem of the illegal victim of 
crime. They are targeted by criminals who know the illegal 
immigrant will not report the crime to the police.
    If someone is actually charged in that case then they don't 
cooperate with the prosecutors in order to prosecute the person 
and so then this--these actions allow criminals to go free and 
waste valuable court resources. Most of this non-cooperation 
can be traced to a fear of deportation and a cultural distrust 
of police.
    On the issue of the 287(g) training I believe it certainly 
would help local law enforcement to be able to determine who 
was an illegal immigrant and be able to start the process of 
deportation. It would be a great help to local law enforcement 
to be able to get a known immigrant criminal out of the 
community without having to wait for an overworked ICE agent to 
begin the process. As long as the Federal Government does not 
make the 287(g) authority an unfunded mandate for local law 
enforcement agencies, then I believe more and more local 
agencies may seek to have their officers trained. North 
Carolina also needs an immigration court here to be able to 
timely and effectively have deportation hearings for illegal 
immigrants found in North Carolina.
    But ultimately--and I mean no disrespect--this is a Federal 
problem. You have to address it. Illegal immigration is 
Federal--is a Federal Government problem. Why are we talking 
about having 287(g) authority? Because the Federal Government 
has not employed enough ICE agents to do the job. And what is 
the Federal Government's policy on deportation? That's going to 
have to be communicated to the officers who are trained under 
the 287(g) authority. For instance, as I understand any illegal 
alien in this country would be subject to deportation but it 
seems like the policy of the Federal Government is to wait 
until they create--commit a State crime and then determine if 
that State crime is serious enough for deportation before any 
action is taken. If a local law enforcement agency has 287(g) 
authority is everybody going to be equally deportable if they 
determine who they are? And that's something you'll have to 
decide.
    Finally, it strikes me as strange that we're having all of 
this discussion about enforcement and giving authority for 
deportation and what crimes will be deportable when we all 
know, and this was stated earlier, we go through all the work 
of deportation, send them to their home country and 2 weeks 
later they're back. So the Federal Government is going to have 
to address that issue. Is the Federal Government going to 
decide that's going to be an offense that they're willing to 
imprison people over for substantial periods of time or are we 
just going to go through a revolving-door deportation process 
again? Thanks for this opportunity to address you and I 
appreciate it.
    [The prepared statement of Mr. Lands follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.016
    
    [GRAPHIC] [TIFF OMITTED] T6029.017
    
    [GRAPHIC] [TIFF OMITTED] T6029.018
    
    Mr. Souder. Sheriff Pendergraph.

   STATEMENT OF JIM PENDERGRAPH, SHERIFF, MECKLENBURG COUNTY

    Mr. Pendergraph. Thank you. Thank you for the opportunity 
to speak to you today and Sheriff Cloninger had a couple of 
minutes left over, I may need those, but please don't be too 
hard on me. My name is Jim Pendergraph, Sheriff of Mecklenburg 
County, North Carolina for the past 12 years. I have been in 
law enforcement for the past 36 years. First, again, let me 
express my appreciation for the opportunity to appear before 
this Commission on Empowering Local Law Enforcement to Combat 
Illegal Immigration. I probably will never have another 
opportunity to address Members of Congress on this very serious 
and controversial subject. It is with all due respect that I 
make my comments, so please excuse me for being blunt.
    I strongly support the Office of the President of the 
United States and President Bush. However, I, and many others, 
strongly disagree with President Bush's policy, or lack of, on 
illegal immigration. The Congress of the United States has let 
us down by the lack of action on the illegal immigration issue 
for decades, leaving those of us responsible for local law 
enforcement to deal with not only the fall-out of the criminal 
element, but the ire of the public for their perception of our 
inaction on a Federal issue.
    Mine is one of the few sheriff's offices, and thank 
goodness Sheriff Cloninger has his approved, in the United 
States that has signed a Memorandum of Understanding with 
Immigration and Customs Enforcement for the 287(g) program. 
After extensive training, 12 of my deputies are certified under 
this program to screen illegal immigrants arrested in 
Mecklenburg County. This certification gives us access to ICE 
data bases of fingerprints and photographs, which is the only 
real method of positively identifying a person and their 
immigration status. Most law enforcement agencies in this 
country are trying to identify the legal status of an 
individual by telephoning the Law Enforcement Support Service 
Center in Vermont and submitting the name of a person in 
question. This is virtually worthless and a waste of time. I 
know it is shocking, but people lie to law enforcement about 
their names and use names of persons who are in this country 
legally. This past February I had lunch in Washington, DC, with 
a group of chiefs and sheriffs from the largest law enforcement 
agencies in the United States.
    I informed one of the chiefs of police of my recent 
agreement with ICE to screen illegal aliens and deport them if 
they fit the criteria. His comments to me were: Congratulations 
and best of luck. I envy what you are doing but I'd have to 
turn in my resignation the same day I signed such an MOU. It is 
not politically correct to cross local business that uses the 
cheap labor. Ladies and gentlemen, this political correctness 
will eventually be the downfall of this country if someone 
doesn't wake up.
    Mr. Souder. I've tried to be a little flexible. We do not 
have demonstration support. You are invited to observe; not to 
participate. It's not a statement whether I agree or disagree 
with that but we need to have order in the hearing.
    Mr. Pendergraph. I didn't mean that.
    Mr. McHenry. You did mean that.
    Mr. Pendergraph. Well, I didn't mean them to do that.
    My office started the immigration screening for persons 
arrested on May 1, 2006. My jail population for illegal 
immigrants has grown from 2 percent to over 15 percent in the 
last 3 years. We have so many new arrestees to process, we have 
not been able to process the 350 inmates suspected of being 
illegal, that were already in the jail on May the 1st. As we 
suspected, the vast majority of immigrants arrested and 
processed are in this country illegally. Infrequently, we find 
a legal resident arrested, but they are rare since they are 
very protective of their legal status. More than half of the 
screened illegals have detainers for deportation placed on them 
immediately, either for past removals from this country or for 
the seriousness of the crime they are accused of. The first 
week we were processing, we came across an individual who had 
been removed from this country 22 times. His last deportation 
was from the Arizona Department of Corrections back to Mexico, 
and he was arrested a short time later in Charlotte for 
trafficking methamphetamine. Again, the majority of the people 
detainers are placed upon have been deported multiple times. 
The ones not held for deportation are cited for an immigration 
hearing in Atlanta which they--most of them never show up for 
any immigration court and that's why we need one in Charlotte.
    So many illegal immigrant criminals have been identified 
through my 287(g) program, it is causing me a jail space 
problem. One of the agreements with ICE in the beginning was 
for their removal of the identified offenders as soon as 
possible. I don't think even they foresaw the numbers we would 
be dealing with. The Removal and Detention Division of ICE is 
overwhelmed by the numbers we are generating for removal in 
Mecklenburg County alone.
    In the last year I have come to know and work very closely 
with the ICE employees in my area. I suspect the public would 
be outraged to know how few ICE agents are assigned to North 
Carolina. Assistant Special Agent in Charge Jeff Jordan, and 
SAC Ken Smith that was just here from Atlanta, have literally 
bent over backward to make this 287(g) program work. They are 
as dedicated and professional people as I've ever worked with 
in my 36-year law enforcement career. However, they are as 
frustrated as I am with their lack of resources, and the 
frequent dealings with the same people they just removed from 
this country only a few days prior.
    I attended a meeting at the White House 2 months ago on 
June 21st with Attorney General Alberto Gonzales and ICE 
Director Julie Myers. The IACP, Major County Sheriffs' 
Association, National Sheriffs' Association, Major City Chiefs 
and other groups representing local law enforcement, stressed 
that border security was the No. 1 issue that needs to be 
addressed by Congress. Another issue that I brought to the 
Attorney General's attention is the common practice by State 
and Federal prosecutors to dismiss criminal cases if an illegal 
immigrant agrees to voluntary removal. The illegal criminal 
immigrants know our system and how it works better than most of 
us do. This in effect wipes the slate clean for a criminal, 
gives him or her a free ride home at taxpayer expense to visit 
family, and then begin the journey back to the United States to 
victimize other citizens. Think of the frustration we feel when 
a group of illegals leaves my jail for deportation and they 
smile and say: We'll see you next week. One of the main 
purposes for our meeting with the Attorney General was for him 
to promote the 287(g) program and to request everyone to become 
part of it. Most Chiefs of Police are not interested in this 
program for various reasons; the main one being it is not 
politically correct and is viewed as a Federal problem. Most 
sheriffs, because they are elected, would like to be part of 
the 287(g) program but ICE administrators admit they have 
nowhere near the resources to support that many MOUs. ICE 
agents in North Carolina could not handle the workload if one-
fourth of the North Carolina sheriffs signed an MOU with ICE 
for the 287(g) program. I can tell you for a fact that had it 
not been for Representative Myrick that I talk with more than 
my own sister I probably would not have my program operating 
now. She's been wonderful helping me with my problems.
    I firmly believe we are just seeing the beginning of 
problems surrounding illegal immigration. This country was 
built on laws and I took an oath many years ago to enforce the 
law and protect our citizens from all enemies, foreign or 
domestic. I take that oath seriously.
    The average citizen has no idea what illegal immigration 
issues costs us in infrastructure tax dollars. These include 
the criminal justice system, hospital emergency rooms, County 
Departments of Social Services, schools, etc. A recent report 
from the Mecklenburg Health Department stated that the County 
spent $400,000 last fiscal year for interpreters for people who 
could speak little or no English that were seeking health 
services. The County's Health Director predicts that in less 
than 5 years, fully 20 percent of the children starting school 
in Mecklenburg County will be children of illegal immigrant 
parents with little or no English skills.
    I have nothing against immigrants and this country was 
built with and by immigrants looking for a better way of life. 
The flood of illegal immigrants crossing our southern border 
expecting citizenship and all the privileges that come with it 
is a slap in the face to every other immigrant who went through 
the legal process and did it the right way. Even though I have 
great concern for the flood of illegals coming here looking for 
a better way of life, my bigger concern is for those crossing 
our porous borders looking to cause harm and commit acts of 
terrorism against the United States. This is a serious Homeland 
Security issue.
    I have just scratched the surface of issues we face every 
day just dealing with illegal immigrants committing crimes in 
our community. Thank you for the opportunity to testify before 
this Commission and may God bless America and help Congress 
come to a quick resolution on this issue.
    Thank you.
    [The prepared statement of Mr. Pendergraph follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.019
    
    [GRAPHIC] [TIFF OMITTED] T6029.020
    
    [GRAPHIC] [TIFF OMITTED] T6029.021
    
    [GRAPHIC] [TIFF OMITTED] T6029.022
    
    Mr. Souder. Thank you very much. Ms. Moose, it's great to 
hear from you directly. Sometimes I think--you can pass that 
microphone.
    Mr. Pendergraph. Excuse me.
    Mr. Souder. Sometimes you wonder--people say that we're 
doing all of this illegal immigration stuff because it's a 
political year and you always--anybody who is in political life 
people wonder about your motives, whether you just say one 
thing and do another, but Congresswoman Myrick started to 
buttonhole members about your case immediately. You just need 
to know it wasn't just back here and it wasn't just that she 
was moving a bill. Quite frankly to be honest I heard probably 
more about your case than I wanted to hear about your case 
that--because we all have variations of this but it was such an 
emotional thing in how it affected her that she immediately 
started talking to a number of us, introduced a bill, worked 
that bill and had a passion with it and that's why I say it's 
of special interest to me because I--I heard about your case so 
many different times in a short form that I'm looking forward 
to hearing from you directly so we can get it into the official 
record of the United States what happened, what it means at a 
personal level in this rather than just the hypothetical level 
with lots of numbers and in general. So thank you for being 
willing to share a very difficult and personal story with us.

       STATEMENT OF EMILY MOOSE, MOTHER OF SCOTT GARDNER

    Ms. Moose. Thank you. The Charlotte Observer headlines on 
July 20, 2005, read simply: Scott Gardner did not have to die. 
My name is Emily Moose and following Sheriff Pendergraph here 
I've been a mother for 35 years and a grandmother for 7 years. 
But more importantly who was Scott? Scott Gardner was a 
husband, a father, a son, a brother, a teacher, a coach and a 
friend. He taught and he inspired. He was a devoted husband and 
a father and he was definitely the anchor in his family. Scott 
was a tall, good-looking fellow with blonde hair and intense 
brown eyes. He was a gentle giant with a soft voice. He loved 
his children with abandon and the game he loved was baseball.
    He was steadfast and loyal, freely giving unconditional 
love. Scott was a proud man. This pride was in who he was and 
what he stood for. Scott was a devoted Christian. His 
evangelism was a live by faith example which drew people to him 
and in this drawing he made clear his faith in his God and his 
acceptance of Christ as his personal Savior.
    On July 16, 2005, Scott and his beautiful wife Tina were 
traveling on Highway 130 in Brunswick County, North Carolina on 
their way to the coast for a long overdue family vacation. 
Their two small children were safely secured in the back seat 
of the family station wagon and all of a sudden out of nowhere 
they were hit head-on by a truck. Nine hours later my precious 
son lost his life and his wife Tina was seriously injured. Tina 
remains in a vegetative State today. She is being cared for in 
a nursing facility in North Carolina. Scott Gardner was 33 
years old and his wife Tina is 32.
    It has been 13 months since that horrible day and our 
family has never overcome this nightmare. As the time goes on 
our pain and our loss grows greater. Our questions as to why 
have never been answered. Our disbelief that something like 
this could happen in our country and our frustration with a 
failed and broken system that cost us the ultimate price is 
mounting. Since my son's murder I have studied and I've read, 
and I suffer the personal pain of the tragic ramifications 
caused by the illegal invasion of my country. In the last 
several months I've travelled to Raleigh, I've been to 
Columbia, I've been to Washington. I have written and e-mailed 
thousands and thousands of letters, made hundreds of telephone 
calls looking for answers to this deadly problem.
    There were four young men in the truck that day that struck 
Scott and Tina head-on and every one of them were in this 
country illegally. After the crash happened, in spite of my 
babies crying and my son screaming to get out of the car, these 
men fled the scene in order to elude the police. They removed 
their clothing and they buried it in order to escape possible 
DNA that might prove who the driver of that truck was. They all 
claimed not to speak or to understand English even though a lot 
of people in their own community said that they do speak and 
understand the language. Investigators later found out that the 
truck that was involved in this accident--or accident--crime 
was owned by another Hispanic fellow in their community. This 
particular man owns 30 such vehicles. He provides little to no 
insurance on these vehicles and he leases them to undocumented 
and unlicensed drivers. The man that was driving the truck was 
described to me by his sister as a good man. This good man 
ignored the screams of my children and my son and ran away from 
his car. After the fact our family learned that man had been 
arrested five times in 5 years prior to that horrible day. One 
of the prior charges resulted in another head-on collision.
    The man that murdered Scott crossed into our country on our 
southern border in Arizona in 1998 per immigration officials. 
He travelled to Michigan at that time and obtained a driver's 
license on June 30, 2000. Fifteen days later he was charged 
with drunk driving in Monroe, Michigan. Authorities in Michigan 
notified Immigration and he was sent back to Mexico. Six months 
later in January 2001, the U.S. Border Patrol caught him again 
and again they sent him home. He was back in the States again 2 
months later in March and he moved to North Carolina to work as 
a roofer. In February 2002 he was arrested for speeding 88 
miles an hour in a 55-mile-an-hour speed zone and tests showed 
that his blood alcohol level was twice the legal limit. That 
DUI was still pending when 3 weeks later he was nabbed again 
for DUI. He was sentenced to 20 days in jail. In the summer of 
2002 this man skipped his court date for the third offense and 
the statistics tell us that 27 percent of drunk driving charges 
against Hispanics are dismissed because they don't show up for 
court. You see, if you don't have a conviction your record is 
clean.
    In late 2002 he was busted again. This time he was 
sentenced to 7 days in jail and supervised visitation (sic). By 
now this fellow, still in my country illegally, had earned 
himself a felony for DUI, but if you don't have any records you 
don't serve detention. In January 2004 he again was charged 
with DUI and his blood alcohol level was three times the legal 
limit. Results of that arrest, 30 days in jail and supervised 
visitation (sic). A spokesperson with the Department of 
Homeland Security says that she couldn't explain why this 
particular repeat offender was not in their data base.
    On July the 16th after a whole day of drinking and just 
having fun this illegal took my son's life and he has darkened 
the life of Tina forever. For all intents and purposes he has 
orphaned my two grandchildren. One Charlotte reporter last 
month wrote that he, however, was not an example of the 
problems of illegal immigration. This article also stated that 
most illegals respect the U.S. laws. I believe that the facts 
speak for themselves. This country has 630,000 criminal illegal 
felons or a full 29 percent of our total population in prison 
today at a cost annually to taxpayers of $1.6 billion. Recent 
reports tell us that 25 American citizens die every day in this 
country at the hands of an illegal. In addition to those 
horrible numbers 624,000 illegal fugitives are hiding in my 
Nation. The Latino community leaders have told us that extreme 
culture differences and the lack of knowledge of the laws of 
this country are the reasons that this death rate is spiraling 
upwards but our border is still open as we speak.
    We have all read and heard of the economic devastation that 
this invasion is causing the American taxpayer.
    Experts in this area are reporting to us crippling numbers. 
Our family's personal experience with the unfairness of this 
financial outrage: Scott and Tina were air lifted and treated 
at a medical facility in Wilmington, North Carolina that deadly 
day. Two passengers in the truck were also treated for their 
injuries at this same excellent hospital. Our family received a 
bill in excess of $89,000 for the 7-hours of treatment that my 
son received there. The other two people left this hospital 
owing no money and now have vanished into the fabric of my 
country. We are a Nation of laws and our laws are not just for 
some but for every single person here. The statement that most 
undocumented respect the U.S. laws is a joke. The mere fact 
that they smuggle themselves into our home, they consume our 
resources, they kill and hurt our citizens, they protest and 
demand more rights than they give their victims is unacceptable 
and it is a crime.
    As this Nation is fighting a war on terror, Homeland 
Security should be the No. 1 priority of every citizen and 
every government official, but we still have that open door. We 
have immigration laws on our books already and for decades they 
have not been enforced. Because of the lack of enforcement 
Scott and millions of other innocent citizens have lost their 
lives. I believe that the cost of human life is just too high a 
price to pay for cheap labor. Our communities and our highways 
wreak of more terror than the war zones do in Iraq. We must put 
a stop to this misery.
    We have to protect this Nation. We must give America back 
to its citizens. A Nation in chaos is still a governed society, 
it's just by the wrong people, for the wrong purposes, and the 
results are disastrous. No family should have to suffer the 
preventable, unacceptable heartache that this American family 
is suffering because our Nation is not enforcing our laws. I 
want to thank you for asking me to be here today and one more 
comment. I think that if the 287 program had been in place in 
Brunswick County, North Carolina my son would still be alive.
    [The prepared statement of Ms. Moose follows:]

    [GRAPHIC] [TIFF OMITTED] T6029.023
    
    [GRAPHIC] [TIFF OMITTED] T6029.024
    
    [GRAPHIC] [TIFF OMITTED] T6029.025
    
    [GRAPHIC] [TIFF OMITTED] T6029.026
    
    Mr. Souder. Thank you. Vice Chairman.
    Mr. McHenry. I'll be happy to yield to Congresswoman 
Myrick.
    Mrs. Myrick. I want to thank you very much. The one thing I 
want to say about you is that you have turned tremendous, 
tremendous grief into a huge advocacy that is helping lots and 
lots of people and we thank you for that because what you're 
doing is unbelievable research and speaking and literally 
changing this fabric we're talking about and thank you for 
doing that and I know you'll keep it up because you're 
committed and that's why we're here today is to try and figure 
out what we can do to stop this so other people don't go 
through what you and your family are still going through. We 
can't relate because we haven't been there. Sheriff 
Pendergraph, I wanted to ask you a question. How often do you 
see returns after deportation? What would you say your 
percentages are.
    Mr. Pendergraph. That's hard to estimate and a rough guess 
would be 10 percent. The quickest we've seen is 3 days but 
frequently it's a week and, in fact, we don't run into them 
unless they commit another crime.
    Mrs. Myrick. I understand that.
    Mr. Pendergraph. They could cross back into this country 
and not commit a crime and they wouldn't come in contact with 
my 287(g) program or they could be in another surrounding 
county or another part of the country; we wouldn't know. The 
ones that we see--the small percentage that we see return, have 
come back, have been rearrested for some reason.
    Mrs. Myrick. For criminal reasons.
    Mr. Pendergraph. Yes.
    Mrs. Myrick. That was my point.
    Mr. Souder. Sue, might I interrupt you for a technical 
question.
    Mrs. Myrick. Yes.
    Mr. Souder. I don't mean to disrupt your flow of 
questioning. Because we have--we have--one of our most 
difficult things in drug intelligence and in now Homeland 
Security is we collect all kinds of data and it's very hard as 
a member of the Homeland Security Committee and chairman of 
this committee to figure out how this is used. When you get a 
case, Congresswoman Myrick just asked you what seems to be in 
the computer age a not hard question but we don't generally get 
the answer no matter who we ask, so I wanted to ask you a 
technical question of what happens; that when you get a--an 
illegal who has been convicted and you said one--the least is 3 
days, do you--who do you report that crime to? What centers 
would get that information? Would it go into the Department of 
Homeland Security? Does it go to your regional Law Enforcement 
Center? Where does the raw data go? Does it go beyond your 
county.
    Mr. Pendergraph. Right. We fingerprint everyone now that 
has not declared that they're a U.S. citizen and tells us on 
the initial interview that they are not U.S. citizens or at 
least they're not born in the United States. They're 
fingerprinted through the ICE data base and the Federal 
Government has wonderful data bases and information systems, 
they're just not sharing them with anyone that's not affiliated 
with this program. They have a photo recognition system, we 
fingerprint and photograph and within 2 minutes we get the 
information back. If they've ever had contact with Immigration 
anywhere in the United States whether it's on the border or 
another State, California, once we finger- print someone and 
find they're a return that information does go to ICE. They 
pick up on that and it also goes to the U.S. Attorney, Western 
District of North Carolina prosecution, as a return. So we 
store that and we are keeping very specific records and we do 
keep good data. I just don't have that in front of me right 
now. But we are keeping good information. The problem is if you 
don't have that program and, again, thank goodness that Alan is 
about to get on board with this. We can keep statistics that no 
other agencies can do right now.
    Mr. Souder. So with your fingerprint program in your 
county----
    Mr. Pendergraph. Yes.
    Mr. Souder [continuing]. It goes in and you can now tell 
because the names are still a problem; they're almost 
irrelevant----
    Mr. Pendergraph. The names are irrelevant.
    Mr. Souder [continuing]. And the false green cards and 
Social Security numbers are more or less irrelevant and without 
a fingerprint it doesn't work. Now let me ask something that 
came up in the district in Winston-Salem. There a local 
prosecutor and sheriff said one of the problems when you pick 
up somebody on--on the road that the police cars themselves may 
not have a fingerprint machine in them with which to read the 
I.D. which means you're back to the name again unless the 
person is hauled to us at a central place. Can you explain the 
challenges of how--what funding challenges we're looking at 
because fingerprints are the only way to do this but if we 
don't have agencies that can read it how does that work.
    Mr. Pendergraph. My--I'm the wrong person to ask technical 
questions. I can't turn my computer on without something 
happening to it but a fingerprint data transmit, it takes a lot 
of space on a server. That is capable--you know, that is a 
possibility. It's very expensive to transmit fingerprints. 
Ultimately I'd like to see that done but you can take them 
anywhere in this State and finger- print them and if you don't 
have that ICE data base like I have in my jail in my processing 
center you won't find out if they're here illegally or what 
their immigration status is.
    Mr. Souder. But if somebody had been picked up at the spot 
on the DUI and the policeman in the car, would they have had to 
bring the person into the jail or had them in the----
    Mr. Pendergraph. Yes. Yes. They can't do that from the 
vehicle right now.
    Mr. Souder. Thank you.
    Mrs. Myrick. Would you know whether that's possible to do 
from a vehicle simply because you're saying it's very--the data 
base is so big.
    Mr. Pendergraph. We are--We just purchased a mobile command 
center to use for drunk driving checkpoints----
    Mrs. Myrick. OK.
    Mr. Pendergraph [continuing]. And one of the things that we 
do is--we have is an AFIS system--an AFIS system and we are 
trying to work out the technical problems of finger- printing 
drunk drivers and transmitting that data back to my data base; 
it goes to the State and FBI. And it is a very difficult 
issue--expensive issue through microwave technology to transmit 
the data that you need to transmit a fingerprint.
    Mrs. Myrick. So we would be looking at a lot of money to 
try and have something in the cars----
    Mr. Pendergraph. Especially--We have mobile laptop 
computers in most----
    Mrs. Myrick. Right.
    Mr. Pendergraph [continuing]. Patrol cars now but we don't 
have access to fingerprints that we can check in the cars.
    Mrs. Myrick. I wanted to ask you about what additional 
costs this has brought to your department. Have the costs 
outweighed the benefits; benefits outweighed the cost? You 
know, where do you stand and what is it that we need to be 
doing along those lines.
    Mr. Pendergraph. Well, it has brought added cost and some 
sheriffs' offices probably wouldn't be able to afford what I've 
done. I house a lot of Federal inmates and I have a contract 
with the U.S. Marshals' Office that they pay us to have inmates 
and we have as everyone else has an excess of unprojected 
revenue coming from the Marshals' Service that we were able to 
fund this program with and we're having--even though ICE paid 
for the equipment and the computer system that they put in for 
me we're having to pay for the DSL and the information systems 
lines that go back to them. And then I have 12 employees that 
after this year that the County is going to have to pick up the 
funding for their salaries and benefits so--but any person we 
identify that's a criminal, and we've found murderers, drug 
traffickers and everything else through our system, is worth 
whatever cost it is to get those people out of our community. 
The frustrating thing is that we can look for them back because 
there is nothing there to stop them from coming back.
    Mrs. Myrick. Sheriff Cloninger, since you've just gone 
through this Memorandum of Understanding process with 287(g) 
where do you see problems or challenges that we need to 
straighten out that would make it easier, simpler, quicker, 
whatever it may be, for other agencies to go through this 
process, because I understand it's a bit cumbersome.
    Mr. Cloninger. Well, the application process wasn't 
difficult in my opinion but it's the fear--I've talked with 
many sheriffs in this area--because you have to look at it 
another way. When Sheriff Pendergraph started, well, that 
pushed the illegals away from Mecklenburg County.
    Mrs. Myrick. So they go to other counties.
    Mr. Cloninger. The funding is in Mecklenburg County so 
they've come to Gaston, Cabarrus, Union. And I've talked with 
other sheriffs and they have fear of the cost and I think 
that's--it's--money runs a lot of things but like Sheriff 
Pendergraph said why do we want a murderer in our community 
just because it costs us a few thousand dollars to have them 
out of our community; you have to make a determination of what 
the--the proper expenditure to fund and the other sheriffs that 
I've talked to want to come on board but they are afraid of the 
cost and expense. I don't know what the cost and expenses are. 
Like Sheriff Pendergraph I'm presently able to house some 
Federal inmates that will help deter some of the cost but----
    Mrs. Myrick. Well, if both of you could--if you could think 
about the fact of how we could simplify this process from the 
standpoint of not just the cost but I'm talking about the 
actual process of getting on board, I would appreciate it if 
you would share that information because----
    Mr. Cloninger. I'd be happy to.
    Mrs. Myrick [continuing]. Because we do want to encourage 
more people to do this. Sheriff, did you have a comment.
    Mr. Pendergraph. I guess one comment, and trying not to be 
too critical in meeting with the Director in Washington, Julie 
Myers----
    Mrs. Myrick. Right.
    Mr. Pendergraph [continuing]. I think that the information 
that the Attorney General and some of the folks in Washington 
get is so sanitized and cleaned up before they get it, they 
have an opinion that things are working well----
    Mrs. Myrick. Um-hum.
    Mr. Pendergraph [continuing]. And I had to inform them that 
it is not working well; that it's a very difficult process to 
get involved and, again, had it not been for you I wouldn't be 
operating this now because I applied, never heard anything and 
there were roadblocks and reasons we couldn't do things every 
turn I made, and I know a sheriff in Tulsa, Oklahoma that has 
tried for 3 years to get a telephone call returned from ICE 
about this program and until I told her about it he didn't get 
a telephone call returned. There's a frustration across the 
board with there's a stonewall somewhere that somebody is 
saying: I don't want you to do anything about this. That's just 
the feeling.
    Mrs. Myrick. Well, that's why the chairman is here today 
to--to figure out what it is that we can do to change this and 
I appreciate all of you testifying. I--Also, Mr. Chairman, we 
had 200 people here today. You can see the interest in our 
community for this program and I did want--this is a little 
aside but I know one of our State senators is here, Robert 
Pittinger, and he just told me that the bill that they have 
been working on in the State legislature which he authored in 
the Senate and it passed through the House to stop issuing 
licenses in North Carolina with taxpayer I.D. numbers, the 
Governor hasn't signed it yet but it will go into law Monday if 
it isn't signed. So I just wanted to pass that on because 
that's one of the reasons we figure we're getting so many 
people in here, Mark, in North Carolina because it's so easy to 
get driver's licenses here compared to other States. You don't 
have to prove who you are. So I just wanted to put that in the 
record and thank you all.
    Mr. McHenry. Thank you all for agreeing to be here. I think 
it's important that we hear from folks that are affected by 
illegal immigration and let's say this. Let's make sure that 
we're very clear about that there is no misunderstanding here. 
When you--When you come to this country illegally you're 
breaking the law to get here.
    That's to start your process of being a part of America. 
You break the law to get here. Once you're here illegally 
you've already broken the law once so it's not much of a leap 
to break the law again. So the condition I would make is that 
if you break the law to get here you are not going to respect 
the law once you're here. What we're--we're discussing here 
today is not simply illegals in the community but those 
illegals that are committing horrible acts and encounter law 
enforcement. Personally I have not had any problem with my 
sheriff, Alan, because I haven't broken the law and so I don't 
have opportunity to encounter you, thankfully.
    Mr. Cloninger. That's good.
    Mr. McHenry. So I want this to be clear to the media and to 
the public at large, we're not anti-immigrants.
    Mrs. Myrick. Right.
    Mr. McHenry. We're talking about illegals in the community; 
not just illegals in the community but those illegals that 
commit acts such as drunk driving, such as drug trafficking, 
such as assault and battery, or worse and so let's talk about 
this, this 287(g) program. This is fantastic feedback we've 
gotten from you--from you, Sheriff Pendergraph, and this is a 
good indication of what we'll be going through in Gaston County 
because of the leadership of Alan Cloninger. We're very 
grateful for that. This is a wonderful program, a great 
opportunity for Gaston County. And what I've found from Lincoln 
County which I also represent is the sheriff there has a desire 
to be involved with the 287(g) program because you are so 
effective in Mecklenburg County that they've seen an enormous 
rise in illegals committing crimes in Lincoln County because 
they don't want to be in Mecklenburg County----
    Mr. Pendergraph. That's good.
    Mr. McHenry [continuing]. Because you're effective.
    Mr. Pendergraph. That's good.
    Mr. McHenry. That is fantastic. So this coordinated effort 
has to go across county lines and we have to have the resources 
in place. Now how long--Sheriff Pendergraph, how long have you 
had the program in place.
    Mr. Pendergraph. We started processing May the 1st, this 
year.
    Mr. McHenry. May the 1st. So since May the 1st your 12 
deputies, how many folks have they encountered.
    Mr. Pendergraph. Around 1,100 that have been arrested that 
we have processed and over half of those have been detained for 
deportation immediately because of some prior deportation or 
some felony that they have--If I might make an example, this 
lady got arrested Monday. She had been in this country 30 years 
from Trinidad. She has 18 aliases, seven Social Security 
numbers, five dates of birth and she's been arrested in five 
different States for felonies----
    Mrs. Myrick. Good heavens!
    Mr. Pendergraph [continuing]. And we're the only ones that 
have picked up on her and she is detained for deportation right 
now. And I've got multiple examples of the same thing and 
they're in every county in this country, I can assure you.
    We can find it because we have the 287(g) program.
    Mr. McHenry. That is amazing. Absolutely amazing.
    Mr. Souder. Why wasn't she in the data bases.
    Mr. Pendergraph. She was. She was in the ICE data bases 
but----
    Mr. Souder. But local law enforcement didn't have a way to 
get to the ICE data bases.
    Mr. Pendergraph. No. Huh-uh.
    Mr. McHenry. So this is a question linking Federal data 
with State and local law enforcement.
    Mr. Pendergraph. Right.
    Mr. McHenry. This is not--This is absolutely frightening 
what you just told me and we're talking about illegal 
immigrants; we're not even talking about terrorist plotters. 
This is absolutely amazing. Alan, do you have a comment.
    Mr. Cloninger. Well, I think what you also have to look at, 
there is another element out there, child molesters that we 
have to identify also. We have--just those in our country who 
are molesters, we're having difficulty tracking them down.
    Mrs. Myrick. They can't hear you, Alan.
    Mr. Cloninger. Excuse me. I'm going to yank this out of 
here in just a minute because----
    Mr. Souder. Snuggle close. We won't make any Ricky-Bobby 
kind of----
    Mr. Cloninger. That would be a good idea. But we've got 
the--the child molesters that we have to arrest--two sheriffs--
and we have difficulty keeping up with those citizens that are 
here legally. So the illegal ones that are roaming across the 
country we have to worry about those also. So it's just not 
somebody to deal with the DUIs. We have to be aware that we 
have to identify those people who are preying on our children 
also. So it's so important that--and it comes down to money if 
the funding is there because we're going to push them out of 
Gaston County into York County and Cleveland County and Lincoln 
County. It's got to be that type of way across the country, 
push them all the way across the border.
    Mr. McHenry. Well, I see the sheriff of Rutherford County, 
Philip Byers, is here, it's a county I represent, and based on 
conversations with him he foresees it affecting Rutherford 
County which is two counties over from us.
    Mr. Cloninger. That's the reason I worked so hard to get it 
here with you all's help because I knew when Jim started it, 
and Jim's program is an excellent program; we're going to model 
ours after his, but that was the effect we were going to have 
in Gaston County and to protect Gaston County I've got to have 
it. I believe all the other sheriffs feel that way also.
    Mr. McHenry. District Attorney Lands, in terms of your case 
loads do you have any statistics about illegals coming through 
the Gaston County Courthouse.
    Mr. Lands. No, sir, I don't have any statistics on that, 
and I think it needs to be said and I think we all know 
illegals are not the only ones committing crimes. There's 
certainly plenty of crimes by American-born citizens so 
that's--that's there but it just seems like the illegal stands 
out because you can very easily start out with it being the 
language problem. I mean, I can deal with, you know, meeting 
people in the public with five no operator's license by 
American citizens but the time it takes to try to communicate 
with someone who is not speaking English with you and trying to 
understand that and trying to communicate what you need to do 
in that situation, you--it just stands out more. So it just 
seems that it's there and it creates a greater problem. But 
there is no question about the fact that--that the numbers are 
increasing. I don't think there is any question about that. 
And, as I said in my written statement, it has a negative 
impact on the court system when you have to use all your 
resources in trying to deal with people who are the victims of 
crime and you send out investigators to try to reach them and 
trying to get them to come in and they won't come in and you've 
got their children who have been molested and the parents won't 
bring in the kids to talk with the prosecutor to try to 
prosecute the case because the fear is they'll be deported or 
the fear is that the minute they do anything then their family 
back home can be injured or they'll be injured and the crime 
problem is just there, it's an undergrowth and it's increasing.
    Mr. McHenry. Well, additionally, Sheriff Pendergraph, you 
mentioned--I asked this question to the agent from ICE that--
the head of ICE for our region and he talked about the Law 
Enforcement Support Center and heralded this as a positive 
thing. Certainly I think it's good to have information out 
there, yes. You mentioned in your testimony, you used the term 
worthless. Can you give some more details here? How can this be 
improved? Should we scrap it and use the funds to get the 
287(g) program spread out? I mean----
    Mr. Pendergraph. I think--I think you should do exactly 
that because we've tried many times to call and phone in a name 
of someone if they give us a name, they don't have any 
identification, to the Law Enforcement Support Center. You 
might get an answer back in a couple of hours; it might be 
tomorrow. By then this person made bond and they're gone and 
you don't know where they've gone. Somebody made a comment to 
me today that there was a Latino arrested in York County and 
the trooper bought him in and he said: What's the guy's name? 
And he told him. He said: There's three of those already in 
there----
    Mrs. Myrick. Three.
    Mr. Pendergraph [continuing]. In the jail now. But they're 
using names that they know people that are legal and when you 
phone that name in to the Law Enforcement Support Center, I'm 
not trying to be flippant about this, I don't have time for 
this. You go to the resource that you have and you know to be 
accurate. The 287(g) program with the fingerprints, the 
photographs is very accurate and very good and the rest of it 
to me is worthless and a waste of time.
    Mr. McHenry. Well, thank you for your testimony. Thank you 
all for your testimony. Mrs. Moose, thank you so much for 
telling your story. I know it's not easy to share but it's very 
important that the policymakers in Washington hear your story 
and I know that Congresswoman Myrick is working so very hard in 
your son's honor and thank you for working hard on this 
important issue.
    MS. MOOSE: We appreciate really what she's trying to do 
very much.
    Mr. McHenry. And thank you all for agreeing to testify 
today. It's very important and we're grateful for the input.
    Mr. Souder. Congresswoman Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I wanted to pay a 
compliment also to my former colleague, Senator Pittinger, who 
is here and I thank Congressman Myrick for bringing him to our 
attention. He's sitting right over here. We sat pretty close to 
each other on the back row in the North Carolina Senate my last 
term there. In addition to the legislation which you got passed 
in terms of the taxpayer I.D. he did something which I think is 
taking North Carolina in a--in a big leap and something that 
many of us tried to do for a long, long time and that is to 
force North Carolina State government agencies to check data 
bases to see if people are here legally or illegally and I 
think some of the issues you all have brought up make us 
realize we've got to do a better job of making sure those data 
bases are reliable. But Senator Pittinger is really working at 
the State level and in thinking about what he's done and what 
some of us are trying to do in the legislature it appears to me 
that our Federal Government has failed in so many ways to do 
what we should be doing in terms of illegal immigration and I 
was thinking about what Mrs. Moose said a little bit ago. The 
press is constantly touting the number of people who are killed 
in Iraq every day and yet very little is said about the number 
of people who die as a result of illegal immigration and 
illegal immigrants and the impact that they're having on our 
country. Our Constitution says that the Federal Government will 
protect us from invasion and I believe that's the No. 1 role of 
the Federal Government is to protect us and defend us. So it 
seems to me that where the Federal Government fails it's our 
responsibility to help local law enforcement and State law 
enforcement to pick up the gap and it's obvious that the 287(g) 
program can help us. And I'd like to followup on what 
Congresswoman Myrick was asking a little bit ago about how we 
can stream- line the processes for this program and it seems to 
me that we need to find a way again to work on our systems. I 
guess I think--I think very much on an individual level but I 
also think on a systems level and believe that we need to do 
all we possibly can to establish systems that will make things 
easier. And it's clear the Federal Government is burdened and 
doesn't have enough money. We could never create enough 
personnel or money at the Federal level to enforce our laws so 
it's clear to me that we have to make this system easier to use 
and more accessible to local law enforcement. So I would urge 
you all to give us any information you can give us or people we 
should contact, other folks. Mr. Pendergraph, you've heard it 
said that--you spoke to Ms. Myers who took care of the person 
in Oklahoma but if you have colleagues who were running into 
problems you need to let us know and if there are sheriffs out 
across the State whose own Member of Congress will not help 
them I can tell you that these Members of Congress will help 
and I am--I am more than a feisty mountain woman. My husband 
says I remind him of a little ant who once--they take on big 
tasks and--and get them done and I--I like to make systems work 
so I hope you will help us make the system work at the local 
level if we can't make it work at the Federal level.
    I think the people of this State are fed up, frankly, with 
the Federal Government and what we're not doing and that's why 
you're seeing these Members of Congress at least doing all they 
can to make it work. Mr. Pendergraph, go ahead.
    Mr. Pendergraph. Representative Foxx, if I could just make 
a comment. I know one of the--the holdups of the 287(g) program 
as far as granting that request to other sheriffs' offices in 
North Carolina particularly is resources our local ICE agents 
have here. SAC Ken Smith who was here earlier wouldn't divulge 
and I won't either; I know how many ICE agents are in North 
Carolina and I know that since we started our program that 
they've had to reassign ICE agents to deal with the numbers 
that we're seeing. They can't support many more because they 
are flooded with work.
    I don't know where the resources are going once they're 
appropriated in Washington but they're not getting to the local 
field offices because they can't handle what they have now. If 
more sheriffs in this State got on board then there would be no 
ICE agents to deal with what they normally do.
    Ms. Foxx. Mr. Lands, may I ask you a question.
    Mr. Lands. Yes.
    Ms. Foxx. What could we do to authorize the State courts to 
handle more of these cases? Is there--Is there something that 
we can do to allow more being done at the local level so we 
don't require more ICE agents? Can we change our system in such 
a way to do that? Could--Do we need to write Federal laws that 
devolve some of that responsibility to State courts.
    Mr. Lands. I guess that addresses what I said earlier, 
what's going to be the immigration policy of the Federal 
Government. My understanding right now is this is a Federal 
Government issue and the States can have local law enforcement 
say this is an immigrant and then they'll designate--I mean, 
this is an illegal immigrant and they will designate and ICE 
takes over and we have to go to Atlanta and an immigration 
judge in Atlanta decides whether they get deported or not. I 
guess it would be the authority of Congress to decide that a 
State judge could have people who make the authority but that 
would be a complete change of the law and, you know, that would 
be creating a jurisdiction for State courts that doesn't exist 
now and that's something that I guess you all certainly would 
be able to look at but that would be a total--total difference 
in the way things are carried out.
    Ms. Foxx. But, you know, Congressman McHenry pointed this 
out and I've mentioned this comment with many people. The rule 
of law I believe is what sets this country apart from every 
other country in the world in addition to our Judeo-Christian 
beliefs and those two go intimately together in my opinion and 
it seems to me that in our rule of law we should think of these 
people who break the law first as criminals; second, as illegal 
immigrants, they're tied together. It seems to me we ought to 
find whatever mechanism we can find to process them as 
criminals and give them the--the results--the effect of their 
criminal activity and think of them as illegal immigrants next 
and that's--that seems to me a frustration that everybody is 
having now and--and they are I think--many of them are prone I 
think to break the law a second, a third and a fourth time 
because they came here first by breaking the law.
    Mr. Lands. Well, this sort of touches on my--my written 
statement there but you were saying that they ought to be 
viewed as a criminal first and then the illegal immigrant 
second, and I guess my written statement was saying that the 
Federal Government has to decide whether being an illegal 
immigrant is deportable or not because you're--the way the 
system works now is we're having to wait for them to commit a 
crime--a State crime and become a criminal before they even 
show up for being as--as deportable and I referenced--of 
course, this was me trying to figure it out--I referenced that 
there's--you could place illegal immigrants in five categories. 
Group 1 is the illegal immigrant who commits a serious crime 
that everybody designates as serious. Well, there is mechanisms 
in place to try to have that person deported. Group 2 is the 
illegal immigrant who commits a crime that the Federal 
Government right now has been designating over the lack of 
resources as not serious but the State government says is. A 
classic example, driving while impaired. That has not been 
deportable before but efforts are being made to say that is 
serious enough. That is Category B. Category C is the illegal 
immigrant who runs a red light and now comes to the attention 
of law enforcement. Category D is the illegal victim who now 
has been the victim of a crime but because of that 
victimization is now known to law enforcement. And Category E 
is the person who is out there, hasn't had any influence--
hasn't impacted as--the law enforcement hasn't come across 
them. Now they've all committed the same Federal crime that 
they're here illegally and as I understand the Federal law they 
all could be deported but that's not happening. The Federal 
Government says we've got to wait until they commit a serious 
crime or we'll have an argument now whether they commit drunk 
driving and now create this second category of crime but are we 
going to--if we get 287(g) authority, you know, what's going to 
happen when these sheriffs say, OK, you know, this person here 
we think is in a gang. We haven't seen them committing a crime, 
we haven't gotten the evidence that they've committed a crime 
but we know they're in a gang; we want to write them up and 
have them deported and it goes to Atlanta and the judge says: 
That's not in our category yet. You know, is that going to 
happen? And, you know, you're right. I think--I think everybody 
says we want to get the criminals out, the ones who are 
committing crimes, but then, you know, are we--does that create 
an amnesty program that if you don't commit the crime you're 
staying and that's--you all are going to have to come up with 
that--that designation. What's the immigration policy? Because 
once you give 287(g) authority to allow the local law 
enforcement agents are you telling them, OK, you come across an 
illegal alien who runs a red light, do you write them up or 
not, you know? Are you going to make it where they have to 
commit a serious, however you want to define it, State crime 
before they ever get deported? And, you know, that's--you're 
waiting around for them to victimize people in this State 
before you ever decide whether you're going to deport them or 
not, and I don't know that's something people want to wait 
around for.
    Mr. Souder. Let me--I have some questions, Mr. Lands. Is it 
illegal in North Carolina to have a false I.D.?
    Mr. Lands. Yes.
    Mr. Souder. Isn't that something you could prosecute.
    Mr. Lands. You can prosecute. That's State law. That's 
correct.
    Mr. Souder. Do you prosecute for a false I.D.
    Mr. Lands. If we determine that and we do the best we can 
in prosecuting it.
    Mr. Souder. Don't almost--Doesn't almost every illegal who 
works at a place in North Carolina have a false I.D.? In other 
words, couldn't theoretically your local sheriff go with your 
local district attorney and go into every workplace and 
actually arrest people.
    Mr. Cloninger. We could but we'd have nowhere to put them. 
I mean, that's--that's what you're saying here.
    Mr. Souder. Well, let me ask another question then.
    Mr. Lands. Well, it's probably--in the vast majority it's a 
misdemeanor. You're talking about under North Carolina 
structured law getting a suspended sentence. Law enforcement 
has to decide whether they're going to go and determine that 
and--and probably at this point it comes to their--it comes to 
their attention. They're not going to go out and look for 
everybody.
    Mr. Souder. I want to make a point of this. So--But the 
State of North Carolina could, in fact, make it something other 
than a misdemeanor if they felt there was a crime problem here 
in North Carolina from illegals; North Carolina could make it, 
if they chose, a felony to have a false I.D. because it's--in 
other words, this isn't just a Federal question here. You can 
theoretically go in now--Isn't it a State crime to not pay 
taxes--North Carolina taxes.
    Mr. Lands. That's correct.
    Mr. Souder. And couldn't the sheriff theoretically working 
with the local district attorney go into every business where 
there is an illegal who hasn't declared under their actual name 
and pick them up? Because what we're really struggling with 
here is--First off, we don't have control of our borders. None 
of us here believe that the Federal Government is doing their 
job. But to some degree in this country nobody wants--I'm a 
Republican, I heard Ronald Reagan's speech, Barry Goldwater, 
one of those people, but the fact is nobody wants to raise 
their taxes at the township level, city level, county level or 
Federal level and this is going to cost a lot of money and it 
isn't--and our debt is greater than all State and local and 
township debt combined in the United States times 10. Only we 
can print money and you can't. That's a big difference. So we 
inflate it and we charge interest rates. We sell off our Nation 
to foreign entities because we run up the Federal debt. Now the 
fact is that they can't just in this massive question, nothing 
in front of us--quite frankly nothing in front of us even 
begins--as I mentioned earlier a work permit--due to the scale 
of this we're going to have to go out with this thing together. 
You're going to have to go. It isn't just enough to say to the 
Federal Government: You guys don't have the will to do this, 
because it's the businesses here in North Carolina and in my 
district that are--that are saying, look, we're going to--the 
manufacturing will shut down without these workers, a lot of 
the service industries, then all the people, the doctors, 
attorneys and others who will be--because there is this income 
there. Another question I have is have you been sitting down 
with your local chambers and trying to talk through it because 
this isn't just a matter of saying go fix it because the 
question is are you helping fix it in North Carolina in 
addition to us at the Federal level because we're going to have 
to jump on this together. This is going to be like crystal meth 
and meth that we--we had some States starting to control the 
pharmacy stuff then we realize that it just rolled over to 
another State then it moved to the Internet. In a hearing 
earlier this summer on meth the DA is now saying 80 percent of 
it is coming across the border; it's now becoming a problem, 
precursors are coming across. And somehow we've got to figure 
out how to do this together because we're never going to have 
enough ICE agents. We need a lot more. But we're also going to 
have to have the States saying: Look, there's a whole bunch of 
State laws being broken. You don't have to sit back and wait 
for us to do it. And if you don't have tough enough State laws, 
pass some.
    Mr. Lands. And they can be passed. I would certainly say 
the legislature can do that. The question becomes is that a 
serious enough crime--State crime for the Feds to decide 
they're going to deport the person. Drunk driving hasn't been 
considered serious enough by the Federal Government to deport. 
They haven't given the resources to deport. Now there is being 
efforts to try to do that. Do you think if we come in there 
with a State misdemeanor that they didn't pay taxes that at 
that point the judge down in Atlanta says deportation? You 
know, we don't know. We don't know what the policy is. And what 
I was saying with 287(g) training you're going to have to let 
this law--these law enforcement officers know. Is--You find an 
illegal alien who sped and ran a red light. Is that going to be 
deportable? Is it?
    Mr. Souder. I was kind of building on Congressman McHenry's 
comment that they broke the law. They didn't break the law--
they probably broke the law on immigrating, the law on I.D., 
the law on taxes, they've broken a series of laws in that and 
that one of the questions is deportation, another--are they 
going to be in prison for breaking that because if you were in 
prison for breaking it, particularly if you stepped it up from 
a small misdemeanor to a greater one, the word of mouth on the 
street is going to change as well and we need to be working 
this--this process up because it also buys us time to make more 
Federal cases on that. You're absolutely right. We've got to 
decide what's a deportable offense and if we start to make 
this--this change, that we're going to have a two-tiered 
system. In fact, one group with Hispanics I meet with in my 
district off the record with no media, they were making the 
case that there are two kinds of laws and it's part of their 
culture and tradition because Mexico, in fact, doesn't enforce 
the laws, they've been--and there are kind of serious offenses 
and small laws that you can ignore and we're developing this 
process in the United States that we have double legal 
standards. There are laws you can get out of. You can drive 68 
but if you cross 70 and you kind of have still some--that's an 
unofficial written rule, stay within five, occasionally at the 
end of the month it varies, you learn that as a citizen, but 
that you look at this and we have a little bit of that but this 
is a wholesale change in this kind of process.
    Now what I've seen--what I--what I am incredibly frustrated 
with is I don't see any realistic discussion quite frankly in 
Washington, DC, on how hard this is going to be and how many 
billions of dollars and how long it's going to take. Everybody 
wants to just do a magic thing and say we're going to do work 
permits and we do--or we're going to do--seal the border. I was 
just--I mean, I go down to the wall a few times a year. Fencing 
this border is going to take forever and when I met with the 
Mexican ambassador just before break and he was trying to give 
me this big shtick about how they're improving things and all 
of that, that there is an area, Neely's Crossing, just east of 
El Paso where the Mexican police can't even go into and they 
have a bulldozer there. When I was there with the border patrol 
it started out they told us we needed to clear out; it wasn't 
safe. They have a bulldozer to knock down the fences and I 
asked the Mexican ambassador: Why don't you stop by removing 
the bulldozer. That would be a start. Take out the bulldozer or 
give us like an F16 permission to go over there and take out 
their stupid bulldozer because this is--this is going to be a 
long process of doing the fence. Then the whole nature of how 
to figure out how to secure these I.D.'s as we've learned 
without fingerprints, secure I.D.'s is a joke because they get 
different names.
    By the way, Sheriff Pendergraph, if you have any more great 
examples I'd love as many of them for the record as many as you 
want to say because that helps make our case of how stupid this 
is, but how hard it's going to be because then we need things 
to read the fingerprints all over the country. Then we've got 
all these Federal agencies. What I was asking Scott, my ICE 
detail, is how come this information is--why doesn't the local 
law enforcement have this, and he gave me two more--we use 
every letter of the alphabet. We have so many intelligence 
agencies that we use every letter of the alphabet, at least 
three or four variations of it, that--because this is a RIS 
system. You all don't use the RIS system. Why is that? Well, 
immigration law has a confidentiality. Yes, you can find a 
felon but not if they've violated immigration law unless you 
get into the 287 program. I mean, we've got a mess in trying 
just to sort that out. Then that--employers are calling in; 
they can find out, they can be told by Social Security that the 
number is doubtful, but if they make a mistake they can be sued 
and that--that we have--we're looking in my opinion if we go at 
this seriously on a border and I.D. question 2 to 4 years if we 
do massive infusions of funds to try to make it because 
otherwise we'll deport them and they'll be back, deport, be 
back, deport, be back, and in that we're looking at two to 4 
years. That's where the question of--State and local question. 
If you can put some of these people in prison and areas, will 
you do it? Buy some time and as we add more agents and as we 
get the border secured behind and as we get a better I.D. 
system we're going to have to have some sort of thing. Every 
police agency in my district--first off, the rural districts 
have been overwhelmed with meth. They have officers that are 
burned out in overtime. They don't have prison space. Part of 
it is they need to go to their county commissioners and say 
that, too. They can't just come to us because if we get the 
choice--I have supported the Cops Program. I have been trying 
to fund the different--we go in there with different grant 
structures that have been hammered. We're going to lose all of 
our drug task forces in the Nation if we don't get more--
different grants and all of that type of stuff. I battle for 
local law enforcement dollars but we're under tremendous budget 
pressures and if you say our first responsibility is let us get 
the fence and the border secured and let us work on the I.D. 
system and intelligence systems, we need some help from the 
State and local law enforcement to buy us some time and in 
detention facilities because there isn't enough money to do all 
of that and the worse disaster, and I hope we can make this 
case here, because if we go back to Washington and pass some 
kind of a new system we're going to have such a result of a 
classic thing all over again where at the end of the day what 
we've done is amnesty and we're going to start the process all 
over again. So that's kind of a little--and I'll like to hear 
some of your reactions.
    Mr. Lands. For people accused of State crimes I think 
you're buying your time. They are in his jail and we're waiting 
around to try them because of all the number of cases and 
whenever the Federal Government decides to look into these 
cases we're waiting around for it to be determined whether the 
Federal U.S. Attorney's Office will get involved in the case so 
you get some time.
    Mr. Souder. But do we have anybody in jail for false I.D. 
or failure to pay their taxes?
    Mr. Lands. No. I would say not at this point. But let me 
bring up this fact. I forgot about the case and I may not be 
able to give all the correct details on it but I did have an 
assistant who was trying a false identification case and 
because of the way the statute is written when he subpoenaed 
the Federal employee to come in and talk about the Social 
Security number he was told: We don't have to honor your State 
subpoena.
    Mr. Souder. Can you provide some details? That's exactly 
what we're looking for. If you can't enforce your State laws, 
because we've heard this on tax and immigration questions, we 
need the specifics because----
    Mr. Lands. We had to send the letter and beg and plead 
please come down here and help us prosecute this case because 
that's the way the statute is written. The U.S. Attorney has to 
give permission for the Federal employee to come to State court 
to honor our subpoena.
    Mr. Souder. That's very helpful. Any other comments.
    Mr. Cloninger. I'd love to comment. When you start talking 
about cooperating that's what the 287(g) program is and we're--
myself, we're looking at trying to fund that ourselves without 
out-tasking for money. But when you start talking in the nature 
of wanting to enforce all of these laws and I'm sitting there 
and the jail is almost full, where am I going to put all of 
these people that you want arrested? They're here because they 
came across illegally. We charge under State law; Mr. Lands' 
criminal justice system right now is overburdened with a number 
of cases pending because we don't have sufficient funds and 
judges, prosecutors to prosecute all the cases. We're just 
getting into--You're just adding more to this vicious cycle in 
a criminal justice system that is neglected and overburdened as 
it is. Now you have infused 400 false I.D. cases. How many of 
the pending State cases; crimes that occurred in North Carolina 
by citizens are going to be that much further put behind; 
continued that much longer trying to do. It's a lot more 
complicated than just say State prosecutors, State law 
enforcement officers, you enforce your own laws and it will be 
all right. That is not the answer, you know, because we're 
already at the end of our ropes for money.
    Our people holler about the taxes and to sort of say, well, 
we'll do this but you've got to pay for it, it only comes down 
to the cop on the street, the sheriff running that jail 
wondering where is he going to put this body? So it's not as 
simple--and I don't--don't mean to read your mind but it's not 
as simple as saying, well, enforce your own laws, State; you'll 
be all right. They wouldn't be here if they hadn't violated 
Federal law in the first place.
    Mr. Souder. I will point out, however, that if we raise the 
taxes in order to pay for it we'll pay a Federal finder's fee, 
our bureaucracy will be about four times as big as your 
bureaucracy and it will be less efficient and you've got all 
kinds of things behind. I'm not suggesting--and we're more 
broke than you are and we've all got to tax the same people. 
The people of North Carolina will be taxed in one way or 
another to pay for this. This is a--This is--Now the question 
is how much--and this is what I have been raising to my 
employer is you're going to get a tax on this. If there are 
going to be visas one of the things we need to be talking about 
in the U.S. Government, it's not like a $50 visa. A work permit 
would be something along like $2,000 because who is going to 
pay for the enforcement of the overstays? Who is going to pay 
the local law enforcement for this? Who is going to pay the 
U.S. Attorney's Office? Who is going to pay the U.S. Marshal 
Service? They're supposed to be transporting them in many 
cases. Then there has to be some kind of a system to figure out 
how we're going to fund this at all the levels so that--Ms. 
Foxx had a short comment.
    Ms. Foxx. Well, I just want to say that I agree with what 
the chairman is saying here and I think that by saying that, 
no, we can't do this at the local or State level then--then 
we're throwing up our hands and giving up and I don't think we 
can do that. I think what has to be done is we have to do what 
we can do at each level of the government and I think what the 
chairman is pointing out are really very important points. 
Somebody is going to pay for this somewhere along the line and 
we are so much better off pinning it to where it belongs and 
making the visas more expensive, doing those kinds of things, 
but it's not all going to be done at the Federal level, yet the 
Federal Government has abrogated a lot of its responsibility 
and I think the people of the State can demand that it be done 
at the State, toughen up its laws and say we're going to do 
some of this. We realize that some of the problem has been 
created by lack of enforcement at the Federal level but you all 
are paying for it one way or the other and we're so much better 
off if we enforce the laws. That--That's where the money seems 
to me ought to be spent instead of in Social Services and in 
the human tragedy and human cost that Ms. Moose is talking 
about, and that's where we ought to do it and if folks 
understand that then eventually I think the people of this 
State are going to say to their local county commissioners and 
to their State legislators we want you to do what you can do 
and then we're going to demand also at the Federal level that 
our Federal folks do that. So I completely agree with you--with 
the chairman and I think from his experience it instructs us 
all.
    The other thing I want to say is I read a couple of 
articles about this hearing today and I don't know if the 
chairman saw them or not but they said this was a dog and pony 
show we were having done for political purposes. Well, a lot--
the media will not report this but a lot of good comes out of 
these hearings and a lot has been learned today and even if it 
doesn't get reported in the media I count on the citizens who 
are here today; I count on Senator Pittinger to take some of 
what he's learned here today, any county commissioners who are 
here, to take these ideas back to them because we won't get 
this reported in the media and there won't be credit given to 
the chairman for doing what he does to go out and learn these 
things because we can't learn them in Washington. You can't 
hold enough hearings in Washington to learn the kinds of things 
that we've learned here today so I hope those of you that are 
here today will go out and say, yes, good was accomplished by 
this because we've learned some things we didn't know before 
and we'll act on those things. I want you to know we will act 
on those things and I'm getting sick and tired of the media 
making this look like it's a nothing issue.
    Mr. Souder. Mr. Pendergraph.
    Mr. Pendergraph. Just a comment. You asked about additional 
examples and I could give you multiple examples of people that 
have been convicted and served time in jail in other States 
that are illegal immigrants in this country and were never 
checked through any immigration data base and we ended up with 
here or in Mecklenburg County. The bottom line is, and I know 
in my sheriff's office if I suggest to my staff that something 
get done they'll find a way to do it. If I told them I want a 
door put in that hallway I'll come back tomorrow and they've 
cut a door in that hallway. The tone has to be set at the top 
and the tone at the top is not to get something done. If the 
President of the United States decided he wanted something done 
about this he would get it done and it's not being done and 
until that tone and that mission is set and if we can--we're 
chipping away at an iceberg here that we're making little bitty 
pieces of ice then it makes no difference across the country. 
It's got to be a nationwide thing that's addressed just like it 
is here with the Federal Government on board and if you want 
the borders secured--and I'm not being funny about this--send a 
sheriff down there. We'll go down there and secure those 
borders. But that's what's got to be done is to put something 
there to keep the ones we do get out from coming back. The only 
thing that is going to change is for Mexico to improve--and 
they're not all Mexican and Latinos that we're checking at the 
border. We've got 17 different countries we've identified that 
we deported people to already. It's to improve the economy in 
those countries that they don't need to leave for a better 
life, to enforce our Federal laws and to make it a felony to 
employ someone in this country where they can't get a job 
easily.
    Mrs. Myrick. That's right.
    Mr. Pendergraph. That's what they come here for and I can't 
hold that against them. They're looking for a better life but 
I've arrested people in my career that have robbed banks 
because they're trying to feed their families, too, and which 
laws are we going to enforce? Which Federal laws? They didn't 
get a break because they were trying to feed their family and 
it's just frustrating.
    Mr. Souder. With all due respect and fairness in El Paso 
we've heard this, at Nogales we've heard this, San Rosita, San 
Diego we've heard this. The local sheriffs and prosecutors at 
one of these locations, the threshold for the Federal marijuana 
is 700 pounds. They don't even take it under 700. At local it's 
200. And when I challenged them with that they said we're tired 
of our jails being so full of people running drugs to Indiana 
and to North Carolina because if your drug appetite is 
overrunning and jamming our prisons, people coming here 
illegally aren't coming to work in our towns, they're coming to 
work in North Carolina and Indiana, and you guys then come to 
us and say why aren't the sheriffs on the border securing it? 
Why aren't the prosecutors handling it? It's your problem and 
our towns are paying for it at the border because you won't 
handle your problems in Indiana and North Carolina. It is--It 
is a multi-task where we all need to work together and there's 
going to be tiers of this in limited budget. It's hard and, 
you're right, there hasn't been a clear leadership from the 
top. I'm afraid that this pressure to get some kind of a bill 
is going to wind up with a bill that's worse than no bill; that 
if we do a window dressing that results in an unenforceable 
provision and then results in--in effect authorizing what's 
here with no plans for what to do with it, no--then we back off 
and we're right back to where we were that started us with it.
    Mrs. Myrick. That's right.
    Mr. Souder. So we need to do a bill but we need to do a 
right bill and we need to do it in steps, not in one big ball 
here because we don't have the funds; we don't have the ability 
to do it in one big ball. We got into this over decades and 
it's going to take us a while to get out.
    Now--But we all have to work together and I can--I hear 
your passion; I hear your frustration. I mean, here we have a 
mom who is saying I gave the ultimate sacrifice with this 
because you guys didn't do your job and it's a challenge to us 
to try to address that.
    I have a couple of very more technical questions. This may 
be the only hearing that Congress conducts on 287 so I want to 
make sure I get a couple of things in. Mr. Pendergraph--and--
first let me ask you. Aside from first getting returned calls 
like Tulsa wasn't, what in the process do you think we could 
streamline and improve for counties being able to get this? Is 
it an awareness question, is it the time it takes to do it, do 
we need more people training? What in the process of the 287 
provision do we need to do?
    Mr. Pendergraph. I think--I'm the treasurer of the Major 
County Sheriffs' Association which represents the largest 
sheriffs' offices in the United States and we've discussed this 
frequently at our meetings. I think the majority of the 
sheriffs--and I think police chiefs, too, because we have joint 
meetings with the major city chiefs--I think they're aware of 
the program. What shocked me is when I learned of it by 
accident from one of my cohorts from California I came back and 
requested information from a local ICE office and they didn't 
know what I was talking about. ICE didn't know what I was 
talking about. And I don't fault them for that but they got 
right on it and then said, hey, there was a law passed in 1996 
that authorized the certification and--of local and State law 
enforcement officers. I think once the application is filed and 
we kind of have that down pat about what needs to be said and 
done as far as actually applying for this, they don't know what 
to do with it apparently in Washington because they're 
overwhelmed with work now that they say to me privately: We 
can't support any more because we don't have the resources in 
the field. I think that's where it needs to be addressed is how 
much support is local law enforcement going to get once they 
apply to see this 287(g) program. And I'll tell you on the 
record that I got my people trained and ready to go to work 
fully 2 months before my equipment was installed and had it not 
been for Representative Myrick, I mean, pounding on someone's 
head in Washington I'm not sure we'd have it installed now 
because there was no one there that could make a decision about 
who is going to do what. We're standing here trained, ready to 
go and work on this problem and the equipment is not installed. 
There is just--There is something there in the road blocking 
everything that there's an attempt to be done to improve and I 
certainly hope Alan doesn't face this problem but--he'll deal 
with it but----
    Mr. Souder. I have a specific request for you----
    Mr. Pendergraph. Yes.
    Mr. Souder [continuing]. And it will tell us a lot about 
the attitudes of your association and others whether we can do 
this. Clearly meth was something that came up from local law 
enforcement, local counties up to the Federal and took forever 
and the drug czar is still trying to figure it out--a cheap 
shot deserved a cheap shot--and simply are blind to the meth 
problem. That--Will at least the big county sheriffs' 
association, if you could raise it with the national sheriffs' 
association, would you first see if the association could find 
basic data and we'll have our staff check this, too. It would 
be helpful coming inside and outside. How many sheriffs have 
asked this: What's the standard process of doing it; this Tulsa 
type thing? The second thing is will your association go on 
record saying that there needs to be more agents devoted to 
this because those of us who are in the program are finding we 
don't have adequate support. In other words, generally speaking 
every association advocates directly for things that help them; 
in other words, we need more cop grants and so on but, in fact, 
it doesn't do us any good to give you more authority if the 
support groups don't have----
    Mr. Pendergraph. I understand. That's absolutely true.
    Mr. Souder. And also I'm talking to the attorneys' 
association because it's fine for us to do that and the U.S. 
Attorney's Office can't or the local attorneys can't if there's 
not jail and bed space but to give us a whole listing thing on 
the record because if we can say in Congress this is--the 
national sheriffs are saying they're willing to do this and 
they could do their part but what they're running into is lack 
of funds in these areas because there isn't this kind of 
support that would be helpful in us making the particular case 
with that. Mr. Cloninger, do you believe you would have been 
cleared if you hadn't had this hearing today?
    Mr. Lands. He still has some paperwork they need to sign.
    Mr. Cloninger. My intention today was to sit in here and go 
why do you all--have I not been cleared but, no, this hearing 
has--I don't believe it had an effect on it.
    I think that just chipped that along but I have been 
questioned why it's been taking----
    Mr. Souder. How long did it take you?
    Mr. Cloninger. Well, we finished in May--our final 
application process in May and June, July, August--4 months.
    Mr. Souder. And when did you--so had you started a process 
before May?
    Mr. Cloninger. February. February we made the request and 
when we received forms to fill out as to what we're willing to 
do, what we're willing to spend, sent that in and received new 
information and the program was evolving. If I can take a 
second, the time we had started we had to get a T2 line for 
communication purposes for your computers and I'm going to 
need. That's a lot of money. So when Jim was going through that 
and they would develop it to a DSL line so there was a change 
even in the middle of our process. I think I'm correct in that.
    [Mr. Pendergraph nods affirmatively.]
    Mr. Cloninger. So it's a developing--It's in a State of 
flux and I think it will change again before I even get started 
but I think that change is what delayed it some- what. But I 
agree that our local agents here--ICE agents did everything in 
their power to get this through as fast as they can with the 
block which----
    Mr. Souder. What other major costs are you looking at that 
will be the major burden of this?
    Mr. Cloninger. The personnel issues. The DSL line, that's 
going to be minimal, but personnel issues and then bed space 
issues. A bed in the Gaston County Jail will cost the citizens 
here $49 a day; U.S. Marshals are paying me $60 a day to hold 
their Federal prisoners. We have already talked with the ICE 
deportation team about how we would hold them. Supposedly under 
the agreement if we--if one of my deputies decides to deport 
someone then we're on--that's the way it's supposed to be--
going to have to hold that person 72 hours before he or she is 
deported or sent down to a line or some other long-term 
facility and after talking with Jim today I'm not sure that 
will happen but that's what we're looking at.
    Mr. Souder. One of our big challenges here is how to and it 
was alluded to earlier and Sheriff Pendergraph said you have 
Federal prisoners to help share some of that cost and as we've 
watched illegal narcotics and other contraband, certainly we 
have to watch this with terrorists, is that just like as we're 
spending more money, certain things at airports and move to 
other things, New York City, there's been an argument that all 
the fund moneys spent out of New York, Boston and Washington, 
DC, on terrorism but if you don't do your second group while 
you're hardening your first group and then your rural areas the 
terrorists--clearly there are A targets, B targets, C targets 
and D targets but the danger here is that even if most people 
were working in Mecklenburg County they're going to go where 
the resistance is least and the smaller departments are the 
ones, for example, the one in meth as well, and that's why it 
probably took us so long to respond and that the costs that 
you're talking about are going to get more and more difficult 
as we move out which is why clearly we're going to have to 
figure out in rural areas, suburban areas as well as the urban 
areas and then depending on the urban areas your tax base may 
or may not be big enough to handle it; in the declining city as 
opposed to a growing city is a huge challenge be it in Los 
Angeles in about a month looking at the rerise of gangs in Los 
Angeles and Compton and the huge problems they have with the 
suburbs getting the tax base and the city with a lesser tax 
base or a suburb like Compton how in the world do you deal with 
it? So we're going to continue to look at it. Anybody else have 
any comments you want to make?
    Ms. Foxx. One more quick comment. You asked a great 
question about getting the sheriffs from the larger cities to 
do something. Would it be possible to do a survey of the areas 
that have received the 287(g) approval to ask them for what 
could be done to make the process better in a general way so 
that--I don't--something done on e-mail, I don't mean a massive 
job, but if we could do something and maybe Sheriff Pendergraph 
and Sheriff Cloninger could get some general idea. I'm just 
thinking about an evaluation that could be done and then be 
given to ICE to say here are some ways that this process could 
be made better or could we force ICE to hire an independent 
person to look at their process and do an evaluation to see 
what's there that doesn't have to be done or some ways that 
they could do that. It seems to me again that moving the system 
quicker is one of the things that needs to be done and--and I 
think the answer to your general question is something is 
blocking it; it's generally called bureaucracy.
    Mr. Souder. And dollars.
    Ms. Foxx. And dollars. But sometimes it's just a clerk 
mentality that people can't break through and I'm just thinking 
about doing an evaluation that could speed it up.
    Mr. Pendergraph. I can speak to North Carolina because this 
has been discussed in the North Carolina Sheriffs' Association. 
All 100 sheriffs in this State would join this program tomorrow 
if they could afford it and they could get acceptance in the 
program. They've made that very plain in our annual conference 
in Charlotte.
    Mr. Souder. Well, thank you very much for your testimony, 
Ms. Moose. This won't bring your son back but maybe it will 
help move the cause and thank you for sharing your testimony 
today. Thank you all for your work. Almost all of our crime 
solutions in America start with a local policeman working hard 
on the beat that gets us information to move up and then the 
dedicated attorneys who are upholding the law. So thank you 
very much for being a part of this hearing. If you have 
additional comments, additional information for the record 
we'll keep it open for a period of time. With that the 
subcommittee hearing stands adjourned.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Virginia Foxx and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6029.027

[GRAPHIC] [TIFF OMITTED] T6029.028

[GRAPHIC] [TIFF OMITTED] T6029.029

[GRAPHIC] [TIFF OMITTED] T6029.030

[GRAPHIC] [TIFF OMITTED] T6029.031

[GRAPHIC] [TIFF OMITTED] T6029.032

[GRAPHIC] [TIFF OMITTED] T6029.033

[GRAPHIC] [TIFF OMITTED] T6029.034

[GRAPHIC] [TIFF OMITTED] T6029.035

[GRAPHIC] [TIFF OMITTED] T6029.036

[GRAPHIC] [TIFF OMITTED] T6029.037

[GRAPHIC] [TIFF OMITTED] T6029.038

[GRAPHIC] [TIFF OMITTED] T6029.039

[GRAPHIC] [TIFF OMITTED] T6029.040

[GRAPHIC] [TIFF OMITTED] T6029.041

[GRAPHIC] [TIFF OMITTED] T6029.042

[GRAPHIC] [TIFF OMITTED] T6029.043

[GRAPHIC] [TIFF OMITTED] T6029.044

                                 <all>

</pre></body></html>
